<html>
<title> - SAFE AND FLEXIBLE TRANSPORTATION EFFICIENCY ACT OF 2003</title>
<body><pre>[Senate Hearing 108-942]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-942
 
        SAFE AND FLEXIBLE TRANSPORTATION EFFICIENCY ACT OF 2003 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

76-454 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 21, 2003.....................................     1
Statement of Senator Brownback...................................     3
    Prepared statement...........................................     3
Statement of Senator Hollings....................................     2
Statement of Senator Inouye......................................     4
Statement of Senator Lautenberg..................................    26
Statement of Senator Lott........................................    23
Statement of Senator McCain......................................     1

                               Witnesses

Mineta, Hon. Norman Y., Secretary, U.S. Department of 
  Transportation; accompanied by Dr. Jeffrey W. Runge, 
  Administrator, National Highway Traffic Safety Administration; 
  and Annette M. Sandberg, Deputy Administrator, Office of the 
  Administrator, U.S. Department of Transportation...............     5
    Prepared statement...........................................     7

                                Appendix

Response to written questions submitted to Hon. Norman Y. Mineta 
  by:
    Hon. John Breaux.............................................    48
    Hon. Ernest F. Hollings......................................    42
    Hon. Daniel K. Inouye........................................    46
    Hon. John McCain.............................................    33
    Hon. Ron Wyden...............................................    53


        SAFE AND FLEXIBLE TRANSPORTATION EFFICIENCY ACT OF 2003

                              ----------                              


                        WEDNESDAY, MAY 21, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good afternoon. Today, we will hear the 
Administration's proposal for reauthorizing the Transportation 
Equity Act for the 21st Century, known as TEA-21, to welcome 
our witness, Transportation Secretary, Norman Mineta.
    Few pieces of legislation receive as much attention and 
interest on the part of every Member of Congress as the highway 
bill, because highway and transit spending has far-reaching 
implications for mobility, safety, and jobs. Every Member has a 
stake in trying to ensure that his or her State gets its fair 
share of available funds.
    One of our priorities, or certainly mine, is to achieve a 
more equitable distribution of funds for donor States like mine 
under TEA-21. Through Fiscal Year 2001, Arizona has received 
back only 87 percent of its share of total contributions to the 
Highway Trust Fund, less than even the 90.5 percent minimum 
guaranteed for the Core Highway program. This is due, in part, 
to the ever-increasing practice of Congressional earmarking, 
whereby appropriators direct funds to the States and localities 
they choose instead of allowing the awarding of so-called 
discretionary funds to be based on the merits of a particular 
project.
    Members may be interested to know that, according to the 
Department of Transportation Inspector General, Congress 
appropriated $18 billion in discretionary funding for highway 
transit and aviation discretionary programs during Fiscal Years 
1998 to 2002. Of that amount, approximately $11 billion--of the 
$18 billion, $11 billion was earmarked. Interestingly, the 
Administration's reauthorization proposal would discontinue 
several discretionary programs.
    I can certainly understand your written statement's 
sentiments, Secretary Mineta, that, quote, Congressional 
earmarking has frustrated the intent of most of these 
discretionary programs, making it harder for States and 
localities to think strategically about their own 
transportation systems, unquote. The process is broken, and we 
need to fix it.
    The many issues pertaining to reauthorization of the 
highway transit and safety programs cross the jurisdictional 
lines of several Senate Committees, including Environment and 
Public Works, Banking, Finance, and Commerce.
    The Commerce Committee's primary role is the critical area 
of surface transportation safety, including vehicle and driver 
behavior programs under the National Highway Traffic Safety 
Administration and commercial motor vehicle and driver safety 
programs under the Federal Motor Carrier Safety Administration, 
both of whom are represented today in Dr. Runge and Ms. 
Sandberg.
    Clearly, we need to reexamine and strengthen our safety 
programs. NHTSA's preliminary report for 2002 estimates that 
the number of fatalities, 42,850--the number of fatalities, 
42,850--increased to its highest level since 1990. Forty-two 
percent of all fatalities were alcohol-related, and 25 percent 
of all fatalities involved a rollover crash. Sixty percent of 
vehicle occupants killed in crashes were not wearing a 
seatbelt. It's worth repeating. Sixty percent of vehicle 
occupants killed in crashes were not wearing a seatbelt. 
However, one bright spot last year was a 3.5 percent decline in 
the number of fatalities in accidents involving large trucks, 
to 4,902 fatalities.
    The Commerce Committee will move quickly in the coming 
weeks to consider and report legislation to reauthorize both 
these agency programs and, if a consensus can be reached, the 
Hazardous Materials Transportation Program, which is partially 
addressed in the Administration's proposal. It is our goal to 
move out of Committee next month the reauthorization titles 
under our jurisdiction and to be fully prepared for floor 
action during the Senate's debate on the comprehensive 
reauthorization legislation this summer.
    Thank you. Senator Hollings?

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Well, thank you, Mr. Chairman. And we 
welcome Secretary Mineta and the witnesses. I only wish you and 
I both had more influence.
    [Laughter.]
    Senator Hollings. Where you get 87 percent return, I'm only 
getting 86 percent return.
    Otherwise, with respect to our so-called $726 billion or 
$550 billion, whatever, tax cut, the revenues that we have now 
that could create, as they say, some 190,000 jobs. The 
Administration estimates that for every billion dollars in 
highway construction, for example, it creates 47,000 jobs. So 
you and I had the opportunity to really put some money to the 
needs of the country with respect to not only highways, 
bridges, safety, and, more particularly, rail. But we have a 
chance to create millions and millions of jobs. Instead, we're 
going the other direction.
    It's only to be noted that President Lincoln put on a 
dividend tax in order to pay for the war. We take the dividend 
tax off to make sure we don't pay for it.
    Thank you.
    [Laughter.]
    The Chairman. Thank you for that history reminder, Senator 
Hollings.
    Senator Hollings. The party of Lincoln.
    [Laughter.]
    The Chairman. Thank you.
    Senator Brownback, of bleeding Kansas.
    [Laughter.]

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. You know, I thought we won that war. Mr. 
Chairman, thank you very much. I want to submit my full 
statement into the record. I appreciate very much the Secretary 
being here today.
    The programs that we're going to be discussing, I think, 
are vitally important and are a central function of government, 
and I'm hopeful that we can do some of the things, like what 
the Chairman is talking about, focusing more in on the formula 
and less on the distractions on the side where people are 
pulling funds away from the central functions that we're trying 
to get done with TEA-21.
    I think overall, TEA-21 has been an excellent bill; it 
always could use some improvements, but I think we're going in 
some of the right directions. I'm hopeful we can continue in 
some of these positive directions.
    One that we'll be watching, as well, that hasn't come up 
yet, but I'm sure will, the ethanol tax credits. There are 
different States that benefit in different ways on those. 
Certainly my State's one of those, in that this is, I think, a 
good policy and a good program that's helped to get an 
alternative energy source moving forward, which we're going to 
be considering soon, an energy bill, that one of the key 
aspects of it is, how do we get more energy bases moving 
forward in a broad set of categories, and here's one that we've 
been working at for some period of time that I hope can 
continue.
    Mr. Chairman, thank you for holding the hearing.
    [The prepared statement of Senator Brownback follows:]

   Prepared Statement of Hon. Sam Brownback, U.S. Senator from Kansas
    As you know, Kansas is a large agricultural state. Encouraging 
ethanol use throughout the country helps the ethanol producers in my 
state. In the past, I have supported efforts that encouraged ethanol 
use. This remains a priority for me and I hope that the Administration 
will continue to support the use of ethanol and those programs that 
encourage its use.
    Additionally, Kansas has been one of the ``donee'' states in the 
Federal Highway System. Throughout the TEA-21 authorization, Kansas 
received an average of $1.07 for every one dollar put into the system. 
I am committed to ensuring that Kansas remain a donee state. As 
proposals are offered, I will be looking closely to see how Kansas' 
Highway funding is affected.
    On another note, I was pleased to see in your proposal some 
attention given to the RABA mechanism. As we are all aware, there have 
been major fluctuations in RABA predictions in the past. Unfortunately, 
predictability has suffered under this mechanism and states are not 
able to accurately plan their highway projects. I am pleased to see 
that your proposal modifies the RABA calculation so that annual funding 
level adjustments are less dependent on future receipts and more 
dependent on the levels of actual receipts. It is critical that states 
are able to more accurately assess what their funding levels will be, 
particularly as states all across the Nation are suffering major budget 
problems.
    Again, Mr. Secretary, thank you for being here today. As the Senate 
continues to move forward on the transportation reauthorization 
legislation, I will be watching closely those issues of particular 
importance to Kansas. I appreciate your taking the time to be here 
today. I look forward to offering a few questions.

    The Chairman. Senator Inouye?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you very much, Mr. Chairman. And, Mr. 
Secretary, it's good to see you again, sir.
    I'd like to touch upon two of your new six programs 
proposals in this reauthorization--it's of particular interest 
to Hawaii--the Freight Transportation Gateways Program and the 
Intermodal Passenger Facilities Program, your proposal on 
Freight Gateway to establish a National Highway System set-
aside to fund intermodal connections and facilities.
    I'd like to commend the Department for proposing this for 
intermodal freight needs, because it will solve critical 
bottlenecks in our Nation's transportation system. So I'm very 
interested in working with the Administration to make certain 
that the intermodal connections that are so vital to my State 
would be eligible under this program.
    With respect to proposed funding for intermodal passenger 
facilities, your program is focused on capital grants for 
intercity bus intermodal facilities and lists several modes of 
transportation as eligible. I believe, however, that seaports 
and ship facilities should be included as eligible expenses in 
an effort to facilitate the flow of passengers at seaports.
    And so I look forward to working with you to extend these 
grants beyond the intercity bus industry and open this funding 
to facilities and industry that will facilitate intermodal 
passenger efficiency.
    I'm certain you're aware, Mr. Secretary, that the 
transportation security issues affect the State of Hawaii 
directly. More than 95 percent of our goods are imported 
through maritime shipping, and a disruption of this process 
would cause a significant hardship for Hawaii's residents and 
visitors. As we saw after 9/11, the economy of Hawaii is 
especially dependent on the secure transportation network. So 
I'm pleased to note that the security improvements would be an 
eligible expense under both the Freight Gateways Program and 
the Intermodal Passenger Facility Program.
    The safety of the traveling public, obviously, is extremely 
important to this Committee, as well as to the general public. 
So as we move forward with the reauthorization, you may be 
assured that we'll be paying particular attention to safety 
issues. I look forward to working with you, sir.
    The Chairman. Thank you, Senator Inouye.
    Welcome, Congressman and Secretary Mineta. We're glad 
you're here. We know you've had some health problems, and we're 
very happy to see you're recovered and back in your usual 
active role.
    I also hope, perhaps, maybe after your comments, maybe we 
could get a comment from Dr. Runge and/or Ms. Sandberg. This 
issue of the number of fatalities being the highest since the 
year 1990 is a very disturbing statistic, and maybe we could 
have a couple of comments on that issue with your associates. 
It's very disturbing, and alcohol-related, obviously, is 
important, but, again, the failure of the use of seatbelts is 
another issue that perhaps we could have some comments about. 
Thank you. Welcome, Secretary Mineta.

         STATEMENT OF HON. NORMAN Y. MINETA, SECRETARY,

       U.S. DEPARTMENT OF TRANSPORTATION; ACCOMPANIED BY

              DR. JEFFREY W. RUNGE, ADMINISTRATOR,

        NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION;

         AND ANNETTE M. SANDBERG, DEPUTY ADMINISTRATOR,

                  OFFICE OF THE ADMINISTRATOR,

               U.S. DEPARTMENT OF TRANSPORTATION

    Secretary Mineta. Thank you very much, Mr. Chairman.
    Chairman McCain, Senator Hollings, and Members of the 
Committee, thank you very, very much for this opportunity to 
appear before you today to discuss the Bush Administration's 
proposal to reauthorize our surface transportation programs.
    Before I begin, I'd like to introduce our National Highway 
Traffic Safety Administrator, Dr. Jeff Runge, and Acting 
Federal Motor Carrier Administrator Annette Sandberg, both of 
whom are here to assist me with any details of your questions.
    Last week, I sent to Congress the Administration's 
reauthorization proposal, the Safe, Accountable, Flexible, 
Efficient Transportation Equity Act of 2003, or SAFETEA. This 
6-year, $247 billion proposal is the largest surface and public 
transportation commitment in American history, larger than 
ISTEA, larger than TEA-21. But it builds on the successes of 
the landmark legislation, ISTEA, which I coauthored during my 
days on the other side of this microphone in the other body, 
and its successor, TEA-21.
    Our reauthorization proposal serves as a true blueprint for 
investment for the future, supplying the funds and the 
framework for needed investments to maintain and grow our 
national transportation system while protecting the environment 
for future generations of Americans.
    In addition, our proposal places a central focus on 
transportation safety. Although we have made improvements in 
the rates of fatalities and injuries on our highways, the total 
numbers remain intolerable, and they are rising. In 2002, 
nearly 43,000 people lost their lives on our highways and 
roads, and these are numbers that I simply will not accept. And 
that is why I have challenged the dedicated men and women of 
the Department of Transportation to dramatically reduce the 
number of injuries and fatalities on our Nation's highways, 
starting right now.
    For the past year-and-a-half, this Department, with the 
critical and timely help of this Committee, has dedicated 
itself to improving transportation security for all Americans. 
Faced with the scourge of terrorism, our Department responded 
by creating unprecedented partnerships with the private sector, 
Congress, interest groups, and Federal, State, and local 
agencies. Together, we succeeded in decreasing the dangers of 
terrorism through new and better technology, more personnel, 
improved laws, and increased education.
    Mr. Chairman, we are going to do the same with car crashes. 
And this year, we are going to take the same passion, call on 
similar partnerships, and build the same record of success 
through enforcement, education, and engineering. Nothing would 
make a greater difference in reducing injuries and fatalities 
than to increase the use of safety belts everywhere in America. 
If safety-belt use were to increase from the present national 
average of 75 percent to 90 percent, which is an achievable 
goal, 4,000 lives would be saved each year. We have a moral, as 
well as an economic, obligation to immediately address the 
problem of transportation safety.
    The total economic impact of all motor vehicle crashes 
exceeds $230 billion a year, a staggering figure, and that is 
why President Bush and I have made saving lives an essential 
priority for the Department and for the reauthorization of TEA-
21.
    Our bill would improve safety by creating a new core safety 
program consolidating and simplifying the safety programs that 
are administered by NHTSA and providing new incentive bonuses 
to reward States that achieve demonstrable safety results. 
SAFETEA also increases funding for important commercial vehicle 
safety hand enforcement programs and strengthens safety 
auditing of new entrant motor carriers. Enactment of our 
proposal would be an important step in reducing highway 
fatalities and injuries and providing greater flexibility to 
State and local governments.
    Mr. Chairman, I also believe that the enactment of SAFETEA 
would help strengthen the stewardship of Federal resources. The 
American people and the Congress rightfully hold our Department 
accountable for ensuring that Federal funds are used in the 
most efficient and effective manner possible. Our proposal 
would help ensure that every dollar that is spent yields the 
maximum benefit in terms of the number of lives saved, reduced 
congestion, and increased mobility. SAFETEA would establish an 
oversight program for monitoring the effective and efficient 
use of Title XXIII authorized funds with a specific focus on 
financial integrity and project delivery.
    Our Nation's transportation system faces significant 
challenges in other areas, as well, such as congestion, project 
delivery, freight movement, and intermodal connectivity. 
SAFETEA would create a safer, simpler, and smarter Federal 
surface transportation program by addressing transportation 
problems of national significance, while giving State and local 
transportation decisionmakers more flexibility to solve 
transportation problems in their communities.
    To accomplish all of these goals, SAFETEA calls for a 
record Federal investment in surface transportation, spending 
over $201 billion on highway and safety programs and nearly $46 
billion on public transportation programs from Fiscal Year 2004 
through Fiscal Year 2009. I firmly believe that our proposal 
provides an excellent framework to tackle the surface 
transportation challenges that lie ahead.
    SAFETEA will help ensure needed repairs to our roads and 
bridges. It will ensure that new transportation projects are 
completed on budget and on time. It ensures the continued 
growth of our Nation's economy without imposing costly new 
taxes. And, Mr. Chairman, I am proud to say that SAFETEA 
includes a strong program for protecting and preserving the 
environment.
    Our proposal funds our Nation's transportation 
infrastructure needs in a fiscally responsible manner. SAFETEA 
continues the funding guarantees of TEA-21 that linked highway 
funding with transportation excise-tax receipts, and redirects 
the 2\1/2\ cents per gallon of the general fund's gasohol tax 
to the Highway Trust Fund. SAFETEA also improves highway 
infrastructure performance and maintenance by dedicating an 
additional $1 billion a year of Highway Trust Fund dollars over 
and above each year's estimated receipts into the Highway Trust 
Fund.
    Obviously, the total size of the program is, and will 
continue to be, a matter of debate. That debate should not, 
however, be permitted to cloud a meaningful and necessary 
discussion of the many programmatic reforms that are contained 
in SAFETEA.
    Moreover, any proposal that jettisons the important linkage 
between tax revenues and spending in an effort to achieve 
higher overall funding puts the landmark victory of guaranteed 
funding at risk.
    My written statement, which has been submitted for the 
record, contains a much more detailed explanation of the 
programmatic reforms that are included in our SAFETEA proposal. 
It is my hope that you will give these proposals serious 
consideration as the Committee moves to develop its version of 
this legislation.
    I would like to conclude by stressing the fact that the 
Bush Administration is committed to securing approval of a 
multi-year reauthorization bill this year, and I look forward 
to working with all of you and with the Congress to achieve 
that very important goal.
    Again, Mr. Chairman, thank you very much for having us here 
today, and I look forward to answering your questions.
    [The prepared statement of Secretary Mineta follows:]

          Prepared Statement of Norman Y. Mineta, Secretary, 
                   U.S. Department of Transportation
    Chairman McCain, Senator Hollings, and Members of the Committee, 
thank you for the opportunity to appear before you today to discuss the 
Administration's proposal to reauthorize our surface transportation 
programs--the Safe, Accountable, Flexible, and Efficient Transportation 
Equity Act of 2003, or ``SAFETEA.''
    Nothing has as great an impact on our economic development, growth 
patterns, and quality of life as transportation. This is equally true 
at the national, State, and local levels. A safe and efficient 
transportation system is critical to keeping people and goods moving 
and cities and communities prosperous. Reauthorization will supply the 
funds and the framework for investments needed to maintain and grow our 
vital transportation infrastructure.
    In addition to improving the quality of our lives and enhancing the 
productivity of our economy, our proposed legislation seeks to place a 
central focus on transportation safety. Although we have made 
improvements in the rates of fatalities and injuries on our highways, 
the total numbers remain intolerable, and they are rising. In 2002, 
nearly 43,000 people lost their lives on our highways and roads. 
Families are destroyed and promise is lost.
    The economic costs are unacceptable as well. The total annual 
economic impact of all motor vehicle crashes exceeds $230 billion, a 
staggering figure.
    For these reasons, the President and I have made saving lives an 
essential priority for the Department and for the reauthorization of 
the Transportation Equity Act for the 21st Century (TEA-21). Nothing 
would make a greater difference in these numbers than to increase the 
use of safety belts everywhere in America.
    If safety belt use were to increase from the national average of 75 
percent to 90 percent--an achievable goal--4,000 lives would be saved 
each year. For every one percentage point increase in safety belt use--
that is 2.8 million more people ``buckling up''--we would save 250 
lives, suffer significantly fewer injuries, and reduce-economic costs 
by hundreds of millions of dollars a year.
    We have a moral, as well as an economic, obligation to address 
immediately the problem of transportation safety. The Bush 
Administration is committed to reducing highway fatalities, and our 
bill offers proposals to increase safety belt use and to take those 
actions that can make the achievement of this goal possible.
    Our proposals include creation of a new core funding category 
dedicated to safety within the Federal-aid highway program. This new 
category will increase visibility and funding beyond the current safety 
set-aside provisions. We are also seeking to consolidate and simplify 
the safety programs administered by the National Highway Traffic Safety 
Administration (NHTSA). This proposal will enhance the capacity and 
flexibility of States to use Federal grants and their own funds to 
improve safety. Incentive bonuses will reward those States that achieve 
demonstrable safety results. Enactment of this bill would be an 
important step, we believe, in reducing highway fatalities and 
injuries, and providing greater flexibility to State and local 
governments to use these funds consistent with a comprehensive 
strategic highway safety plan.
    Our Nation's transportation system obviously faces significant 
challenges in other areas as well, such as congestion, timely project 
delivery, freight efficiency, and intermodal connectivity. Our proposal 
will create a safer, simpler, and smarter Federal surface 
transportation program by addressing transportation problems of 
national significance, while giving State and local transportation 
decisionmakers more flexibility to solve transportation problems in 
their communities.
    SAFETEA calls for a record Federal investment in surface 
transportation, spending over $201 billion on highway and safety 
programs, and nearly $46 billion on public transportation programs, 
from Fiscal Year 2004 through Fiscal Year 2009.
    These funding levels would be achieved by: (1) continuing the 
financial guarantees of TEA-21 that linked highway funding with the 
receipts generated by transportation excise taxes; (2) redirecting to 
the Highway Account of the Highway Trust Fund the 2.5 cents per gallon 
of the gasohol tax currently deposited in the General Fund; and (3) 
dedicating an additional $1 billion a year of Highway Trust Fund 
dollars over and above each year's estimated receipts into the Highway 
Trust Fund to improve highway infrastructure performance and 
maintenance.
    Thanks in large part to the hard work of many of you and your 
predecessors, SAFETEA builds on the tremendous successes of the 
previous two pieces of surface transportation legislation. Both the 
Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA), a 
bill with which I am proud to have played a role, and TEA-21, provided 
an excellent framework to tackle the surface transportation challenges 
that lie ahead.
    ISTEA set forth a new vision for the implementation of the Nation's 
surface transportation programs. Among other things, ISTEA gave State 
and local officials unprecedented flexibility to advance their own 
goals for transportation capital investment Instead of directing 
outcomes from Washington, D.C., the Department shifted more of its 
focus to giving State and local partners the necessary tools to solve 
their unique problems while still pursuing important national goals. 
SAFETEA not only maintains this fundamental ISTEA principle, it goes 
further by giving states and localities even more discretion in key 
program areas.
    TEA-21's financial reforms have proven equally significant by 
providing certainty, predictability, and of course, increased funding, 
TEA-21 paved the way for State and local transportation officials to 
undertake strategic transportation improvements on a record scale.
    TEA-21 achieved this by reforming the treatment of the Highway 
Trust Fund to ensure that, for the first time, spending from the 
Highway Trust Fund for infrastructure improvements would be linked to 
tax revenue. The financial mechanisms of TEA-21--firewalls, Revenue 
Aligned Budget Authority (RABA), and minimum guarantees--provided 
greater equity among states in Federal funding and record levels of 
transportation investment SAFETEA maintains the core TEA-21 financial 
structure, while moderating the wide swings in program levels that 
resulted from the RABA mechanism.
    The total size of the program is and will continue to be a matter 
of debate. As that debate progresses, it should not be permitted to 
cloud a meaningful and necessary discuss on of the many programmatic 
reforms contained in SAFETEA.
    The following are the major programmatic elements of the 
Administration's proposal to reauthorize the Nation's surface 
transportation program:
Creating a Safer Transportation System
    President Bush and this Administration are committed to fostering 
the safest, most secure national transportation system possible, even 
as we seek to enhance mobility, reduce congestion, and expand our 
economy. These are not incompatible goals. Indeed, it is essential that 
the Nation's transportation system be both safe and secure while making 
our economy both more efficient and productive.
    While formulating the Department's reauthorization proposal, the 
Federal Highway Administration and NHTSA came together on a different 
approach to addressing the Nation's substantial highway safety 
problems. Under that approach, States would receive more resources to 
address their own, unique transportation safety issues; would be 
strongly encouraged to increase their overall safety belt usage rates; 
and would be rewarded for performance with increased funds and greater 
flexibility to spend those funds on either infrastructure safety or 
behavioral safety programs.
    SAFETEA establishes a new core highway safety infrastructure 
program, in place of the existing Surface Transportation Program safety 
set-aside. This new program, called the Highway Safety Improvement 
Program will more than double funding over comparable TEA-21 levels. In 
addition to increased funding, States would be encouraged and assisted 
in their efforts to formulate comprehensive safety plans.
    In an attempt to make our grant programs more performance-based, we 
have proposed a major consolidation of NHTSA's Section 402 safety 
programs. Two important elements of this revised Section 402 are a 
General Performance Grant and a Safety Belt Performance Grant. The 
Safety Belt Performance Grant rewards States for passing primary safety 
belt laws or achieving 90 percent safety belt usage rates in their 
States. Any State that receives a Safety Belt Performance Grant for the 
enactment of a primary safety belt law is permitted to use up to 100 
percent of those funds for infrastructure investments eligible under 
the Highway Safety Improvement Program. Also, States can receive 
additional grants for improving their safety belt use rates. Any State 
that receives a General Performance Grant for the achievement of 
various other safety performance measures is permitted to use up to 50 
percent of those funds for activities eligible under the new Highway 
Safety Improvement Program.
    Overall, this groundbreaking proposal offers States more 
flexibility than they have ever had before in how they spend their 
Federal-aid safety dollars. It would reward them for accomplishing 
easily measurable goals and encourage them to take the most effective 
steps to save lives. It is exactly the kind of proposal that is needed 
to more effectively tackle the tragic problem of highway fatalities.
    SAFETEA also provides increased funding for commercial vehicle 
safety and research programs in order to enhance the quality, 
stability, continuity, and uniformity of State commercial vehicle 
safety and enforcement programs. In addition, our proposal expands and 
improves safety auditing of ``new entrant'' motor carriers.
Simplifying Programs by Expanding State and Local Flexibility and 
        Improving Project Delivery
    The President and I strongly believe that Federal transportation 
programs must be simpler. This belief is manifested in two types of 
proposals that appear throughout SAFETEA: (1) those that increase state 
and local flexibility and (2) those that seek to increase the 
efficiency of transportation project delivery.
    As the successes of ISTEA and TEA-21 have shown, State and local 
decisionmakers have the greatest capability to address State and local 
transportation problems. SAFETEA continues this principle and expands 
upon it The Federal Government should facilitate and enable State and 
local transportation decisionmakers, but it is also in a position to 
bring multiple States to the table in addressing regional issues, and 
to take a proactive lead in areas of national concern.
    The President and I believe that we can and must protect our 
environment while improving the efficiency of transportation project 
delivery, consistent with the President's Executive Order on 
Environmental Stewardship and Transportation Infrastructure Project 
Reviews.
    SAFETEA eliminates most discretionary highway grant programs and 
makes these funds available under the core formula highway grant 
programs. States and localities have tremendous flexibility and 
certainty of funding under the core programs. Unfortunately, 
Congressional earmarking bas frustrated the intent of most of these 
discretionary programs, making it harder for States and localities to 
think strategically about their own transportation problems.
    SAFETEA also establishes a new performance pilot program under 
which States can manage the bulk of their core formula highway program 
funds on a performance basis, cutting across the programmatic lines by 
which the Federal-aid highway program is normally structured. Under the 
pilot program, States would work with the Department to develop and 
meet specific performance measures that reflect both State and national 
interests.
    Public transportation programs would undergo a significant 
restructuring under SAFETEA in an effort to make them more effective 
and responsive to customer and grantee needs. Under that restructuring, 
Federal Transit Administration (FTA) programs would fall under three 
major areas:

  <bullet> Urbanized area formula grants, which would include the 
        current formula grants as well as formula Fixed Guideway 
        Modernization funding;

  <bullet> Major Capital Investments, which would broaden the current 
        New Starts program to include non-fixed guideway corridor 
        improvements, such as Bus Rapid Transit; and

  <bullet> State-Administered Programs, including the Rural, Elderly 
        and Disabled, Job Access and Reverse Commute, and New Freedom 
        Initiative programs. The Job Access and Reverse Commute and New 
        Freedom Initiative programs would be supported through flexible 
        formula grants to the States.

    As with the highway program, the restructuring of FTA programs 
includes shifting discretionary grant programs to formula programs and 
merit-based funding programs. Funds from the heavily earmarked bus 
discretionary program will be shifted to four different areas: (1) the 
Urbanized area formula program; (2) the Rural formula program; (3) the 
newly expanded New Starts program; and (4) Performance incentive 
grants. Consistent with the bill's strong overall customer orientation, 
SAFETEA also proposes a new performance incentive program that rewards 
increased transit ridership.
    SAFETEA will give communities the flexibility to choose less 
expensive major transit investment alternatives, while ensuring that 
all projects meet New Starts financial and project justification 
criteria. This is accomplished by:

  <bullet> Expanding the New Starts program to include non-fixed 
        guideway corridor-based transit systems;

  <bullet> Eliminating the $25 million New Starts funding threshold, 
        making all projects seeking New Starts funds subject to the 
        evaluation criteria established in law; and

  <bullet> Simplifying the evaluation process for projects requesting 
        less than $75 million in New Starts funds.

    SAFETEA also would promote independence and opportunity by 
enhancing programs that serve our most vulnerable populations. For 
example, SAFETEA--

  <bullet> Increases relative funding levels for rural formula programs 
        to assist the 40 percent of rural counties that have no public 
        transportation, especially since one-third of residents in all 
        rural communities are transportation disadvantaged;

  <bullet> Implements the transportation provisions of the President's 
        New Freedom Initiative by creating a stable and reliable source 
        of funding to States for community-based solutions that address 
        the unmet transportation needs of persons with disabilities;

  <bullet> Makes the Job Access and Reverse Commute program a stable 
        and reliable source of formula funds in every State to help 
        meet the employment-related transportation needs of welfare 
        recipients and other low income individuals. Currently, JARC is 
        a heavily earmarked discretionary grant program;

  <bullet> Sustains the Elderly and Persons with Disabilities formula 
        program to help meet the needs of these transportation-
        disadvantaged individuals; and

  <bullet> Ensures a more coordinated and cost-effective approach to 
        meeting the needs of transit-dependent persons by (1) requiring 
        communities to develop a local prioritized project plan to 
        serve elderly persons with disabilities and low-income 
        individuals, which must be honored by States as they make 
        decisions about suballocating State-administered funds; and (2) 
        making mobility management an eligible expense.

    We all know that it takes far too long to take a transportation 
project from concept to completion, and this Administration is 
committed to streamlining this process. Projects that were cutting edge 
while in the concept stage too often end up turning into ``catch-up'' 
projects after years of delay. The Department has made great strides in 
addressing those delays related to environmental review, including 
better coordination during the environmental review process, and other 
improvements that have resulted from implementing the President's 
Executive Order on Environmental Stewardship that was issued last fall. 
However, certain legislative changes are necessary. In the 
environmental review area, SAFETEA provides a menu of solutions, all of 
which should help reduce the time it takes for a sponsor to deliver a 
transportation project. These include:

  <bullet> Strengthening the provisions of current law that establish 
        timeframes for resource agencies to conduct environmental 
        reviews and make decisions on permits;

  <bullet> Improving the linkage between the transportation planning 
        and project development processes;

  <bullet> Simplifying the processing of Categorical Exclusion 
        approvals;

  <bullet> Clarifying the legal standard under ``section 4(f)'' 
        applicable to determinations as to whether a possible project 
        alternative is feasible and prudent;

  <bullet> Resolving the current overlap between Section 106 of the 
        National Historic Preservation Act and ``section 4(f)'';

  <bullet> Establishing an exemption for the Interstate Highway System 
        as an historic resource, unless the Secretary deems an 
        individual element worthy of protection under the National 
        Historic Preservation Act. The Advisory Council on Historic 
        Preservation and the Federal Highway Administration are working 
        to achieve the objective of this section through an 
        administrative exemption, using a provision of the regulations 
        that implement Section 106. If we are able to make progress 
        towards such an administrative solution, we will advise 
        Congress that this additional legislation is no longer needed.

  <bullet> Providing for timely resolution of outstanding legal 
        disputes by establishing a six-month statute of limitations for 
        appeals on the adequacy of projects' environmental impact 
        statements and other environmental documents; and

  <bullet> Expanding the ability of States to provide Federal-aid 
        highway funds to resources agencies to expedite the 
        environmental review process.

    While making the environmental review process more efficient, 
SAFETEA also offers important proposals to protect and enhance the 
environment. Those proposals include:

  <bullet> Revising the CMAQ program to better address the new air 
        quality standards;

  <bullet> Continuing a major emphasis on improving public 
        transportation;

  <bullet> Revising the High Occupancy Vehicle (HOV) lane provisions to 
        encourage the use of cleaner and more fuel-efficient vehicles;

  <bullet> Encouraging the active consideration and implementation of-
        context sensitive design principles and practices in all 
        Federally aided transportation projects; and

  <bullet> Establishing a new Transportation, Energy, and Environment 
        program to carry out a multi-modal energy and climate-change 
        research program.

    Each year, there are over 900 million visits to national parks, 
forests, and wildlife refuges. Through our Federal Lands Highways 
program we provide funding to maintain and responsibly improve access 
to these areas. Because a substantial maintenance backlog has built up 
in our system of park roads and parkways, we are proposing a 
significant funding increase for the Park Road and Parkways Program. 
Three hundred million dollars would be authorized for FY 2004, and a 
total of $1.890 billion would be authorized over the six-year period, 
to improve these roads. And, in support of the President's National 
Parks Legacy Project, a new Federal Lands Transit Program would be 
established.
    The transportation planning process has become overly burdensome as 
well. To address this problem, SAFETEA proposes the following:

  <bullet> Combining the long-range metropolitan transportation plan 
        and shorter term Transportation Improvement Program into a 
        single document;

  <bullet> Aligning the transportation and air quality planning 
        horizons for purposes of transportation conformity; and

  <bullet> Creating a single set of requirements applicable to both 
        highway and public transportation planning.
Making the Federal Transportation Program Smarter
    The President has urged every Federal agency to be more results-
oriented, guided not by process but performance. In the context of 
transportation, that means: using Federal surface transportation 
programs to increase the efficiency with which people and goods move 
throughout the transportation system; expanding innovative financing 
options; enhancing operational capacity; rewarding grantees that meet 
important, measurable goals; promoting a seamless system in which 
different transportation modes are efficiently connected; and 
increasing oversight and accountability to ensure large Federal 
investments are being protected.
    Recent estimates indicate that Import/Export Freight Tonnage could 
double by 2020 and Domestic Freight Tonnage could increase by about 70 
percent over that same period. International trade now comprises over 
25 percent of the U.S. Gross Domestic Product and is expected to rise 
to one-third in less than 20 years. The days when trade issues could be 
ignored as irrelevant to overall U.S. wealth creation are long gone.
    Ensuring efficient global supply chains therefore becomes of 
paramount importance for the world economy as manufacturing industries 
respond to a growing goods trade through the implementation of just-in-
time manufacturing. Moreover, end products are increasingly comprised 
of component parts being shipped from all over the world. As a result, 
the container, by far the most popular means to transport cargo, takes 
on heightened significance.
    Through the implementation of sophisticated logistics policies to 
manage massive numbers of containers, an inventory management 
revolution is currently taking place that we must be very careful to 
protect and promote.
    The goal of linking production decisions to the shifting pace of 
consumer demand that seemed elusive just 20 years ago is suddenly very 
attainable. With it comes the even more elusive hope of smoothing out 
business cycles. The ability to actually move freight quickly across 
various modes of the transportation system, however, is the linchpin of 
this revolution. The benefits attributable to dramatically lower 
inventory costs and increased liquidity for businesses that do not need 
to spend capital on unused inventory can be severely compromised by an 
inefficient transportation system.
    Although carriers and shippers are by and large private entities, 
their financial health is inextricably linked to the health of public 
transportation infrastructure. As a result, cooperation between the 
private sector and government must be improved through an increase in 
public-private partnerships. The United States, with the most vibrant 
and dynamic private sector in the world, is unique in its lack of 
private sector involvement in transportation infrastructure. In 
addition to improving the overall addition of the Nation's surface 
transportation network, SAFETEA specifically targets the capacity and 
efficiency of the Nation's freight system by:

  <bullet> Establishing a National Highway System (NHS) set-aside to 
        fund highway connections between the NHS and intermodal freight 
        facilities, such as ports and freight terminals;

  <bullet> Expanding Surface Transportation Program (STP) eligibility 
        to include freight connector projects;

  <bullet> Continuing the Transportation Infrastructure Finance and 
        Innovation Act of 1998 (TIFIA) and allowing rail freight 
        projects to qualify for TIFIA credit assistance;

  <bullet> Lowering the TIFIA program's project threshold from $100 
        million to $50 million; and

  <bullet> Expanding the availability of tax-exempt private activity 
        bonds to include highway projects and freight transfer 
        facilities.

    While virtually every other industry in the world has gone through 
a technological revolution, transportation still lags behind in the 
area of technology deployment Our proposal continues to foster the 
research, development, and implementation of Intelligent Transportation 
Systems technologies but places a much greater emphasis on using these 
technologies to improve the performance and operation of transportation 
systems and motor vehicles in a way that directly benefits 
transportation customers.
    These technologies can be particularly effective in the 
implementation of innovative demand management strategies. SAFETEA 
provides more resources to expand capacity, but also provides new tools 
to States and localities to manage existing capacity more rationally. 
Our proposal would allow States to establish user charges on Federal-
aid highways, including the Interstate System, to improve these 
facilities. It would also allow States to permit Single Occupancy 
Vehicles (SOVs) on HOV lanes, so long as time-of-day variable charges 
are assessed on SOVs for such access.
    Despite their critical role in the surface transportation system, 
intercity buses have been largely a ``forgotten mode.'' SAFETEA 
addresses this anomaly by establishing requirements to improve 
intercity bus access to significant intermodal facilities. Our proposal 
also authorizes a $425 million grant program to fund capital 
improvements related to such access.
    Evasion of Federal fuel taxes is a serious and growing problem that 
requires an equally serious Federal response. This has been, I know, a 
major concern of Congress. SAFETEA reduces legal loopholes and 
dedicates more resources to collaborative government-wide enforcement 
effort. If we are successful in curbing fuel tax evasion, it has the 
potential to increase resources for investment in the transportation 
system.
    Last, but certainly not least, our proposal strengthens stewardship 
of Federal funds without treading on State prerogatives or creating red 
tape. Increased accountability will ensure that every dollar spent will 
yield the maximum benefit in terms of lives saved, reduced congestion 
or increased mobility. These proposals include:

  <bullet> Requiring that project management plans and annual financial 
        plans be submitted for all Federal-aid projects costing $1 
        billion or more;

  <bullet> Requiring that annual financial plans be prepared for all 
        projects receiving $100 million or more in Federal-aid funds;

  <bullet> Establishing minimum cost-estimating standards in order to 
        provide more reliable and consistent project cost expectations;

  <bullet> Strengthening the Department's suspension and debarment 
        policies to prevent contractors from continuing to defraud the 
        government; and

  <bullet> Allowing States to share in monetary recoveries from Federal 
        fraud cases.

    This legislative proposal builds upon the principles, values, and 
achievements of ISTEA and TEA-21, yet recognizes that there are new 
challenges to address. We urge Congress to reauthorize the surface 
transportation programs before they expire on September 30, 2003. Any 
delay would cause uncertainty and likely reduce infrastructure 
investment at the State and local levels at a time when such investment 
is particularly critical.
    Finally, let me return to the subject of safety. For the past year 
and a half this Department, with the critical and timely help of this 
Committee, has dedicated itself to improving transportation security 
for Americans. Faced with the scourge of terrorism our Department 
responded by creating unprecedented partnerships with the private 
sector, Congress, interest groups, and Federal, State, and local 
agencies. Together we succeeded in decreasing the dangers of terrorism 
through new and better technology, more personnel, improved laws, and 
increased education.
    We are going to do the same thing with car crashes. We cannot 
ignore the deaths of 43,000 Americans each year and the thousands more 
who are injured. This year, we are going to take the same passion, call 
on similar partnerships, and build the same record of success through 
enforcement, education, and engineering. Why? Because it is the right 
thing to do--and we have the will and the ability to do it.
    Last year, Congress gave my Department 36 mandates to improve 
transportation security. I gave the people in my Department one. My 
mandate was to find a way to meet every one of the 36 Congressional 
mandates. They did.
    Now I have given my Department another mandate: Dramatically reduce 
the number of Americans killed and injured by car crashes.
    If we succeed, hundreds, perhaps thousands, of lives will be saved 
and serious injuries reduced each year. And the futures of thousands of 
our fellow citizens will be better secured. It is a mandate that I ask 
this Committee and this Congress to join our Department and this 
Administration in achieving.
    Thank you, again, for giving me the opportunity to testify, and I 
look forward to working with Congress to pass this legislation.

    The Chairman. Thank you, Mr. Secretary.
    Dr. Runge, do you want to talk for a minute about this 
issue of the increase in highway fatalities?
    Dr. Runge. Thank you, Mr. Chairman, I'd be happy to address 
that.
    I couldn't agree with you more. I think your word was 
``disturbing.'' The number 42,850 is an obscene number that we 
should, indeed, not tolerate.
    This goes to the very heart, the very cornerstone, in fact, 
the very title of our proposal. We believe that we do know the 
solutions to these problems, and we believe that, through the 
bill, we can achieve significant gains.
    As you said, there are some bright spots. Injuries, in 
fact, are down for the second year in a row, to historic lows, 
injuries that would otherwise be hospitalizable. And we believe 
that we know why that is.
    Another bright spot is child safety. Through the efforts of 
the Congress and everyone in the Administration, child safety 
has never been at a higher level than it is right now. In fact, 
99 percent of infants are in child safety seats, and 94 percent 
of toddlers.
    So we see things going in opposite directions. We have a 
group that is completely restrained in their vehicles, and we 
have another group, as you well said, where 60 percent of the 
fatalities are unrestrained.
    Therefore, safety belts, I think you'll see, is a primary 
part of the NHTSA part of the safety proposal. For the first 
time, we are putting our money where our education has been, in 
that the encouragement of States to pass primary safety belt 
laws is a way that we know we can achieve significant gains.
    The Chairman. Does that include advocacy that States adopt 
laws that empower their law-enforcement people to stop 
automobiles or other vehicles just for the reason of checking 
on seatbelts?
    Dr. Runge. Yes, sir. That is what we call either a standard 
law or a primary law. That is exactly that intent. States that 
have those laws are----
    The Chairman. Ms. Sandberg, do you----
    Dr. Runge. I'm sorry.
    The Chairman.--agree with that?
    Ms. Sandberg. Yes, sir, I do.
    Dr. Runge. States that have those laws----
    The Chairman. How do you think the States would react to 
that?
    Dr. Runge. Well, we currently have 18 States, and a 19th 
that just passed their law, who have primary belt laws. They, I 
believe, are very satisfied with those. Even the parts of the 
population like minorities that were initially concerned about 
things like racial profiling have realized huge gains.
    The Chairman. Have we seen any results in these States 
where those laws were already in effect?
    Dr. Runge. We have, indeed. New Jersey----
    The Chairman. I don't have the nomenclature down very well, 
but you know what I'm saying.
    Dr. Runge. Yes, sir. We've seen, consistently, an 11 
percentage-point increase in States after they pass a primary 
belt law.
    The Chairman. Reduction in accidents, or what?
    Dr. Runge. Well, even if crashes don't go down, fatalities 
do go down. And I'll give you those numbers, by State.
    Again, vehicle miles traveled have increased. Our rate is 
staying level, even though fatalities have increased. But we do 
believe that we know the solution.
    The Chairman. Do you want to add anything, Ms. Sandberg?
    Ms. Sandberg. Yes, very quickly.
    As you pointed out, over the last several years--actually, 
over the last 4 years, we've seen a decline in large truck 
crashes. And last year, the 3.5 percent decline was the largest 
decline we've seen in a decade.
    The Chairman. Because?
    Ms. Sandberg. Well, I'd like to say we would take complete 
credit for that, but I have to give a lot of credit to the 
States. We've seen an increase in the amount of money that the 
Federal Government has given to States to focus on large 
trucks, everything from focusing on the driver to the equipment 
to the company.
    And the proposal that you see here in front of you today, 
we actually looked to close some of the enforcement gaps that 
are there, as well as focus on the new entrants, who we know 
are the biggest problem. And we're going to be working with Dr. 
Runge and Mary Peters, specifically on this seatbelt issue, 
because we know, in large truck--we have a study that's about 
to be released that shows only 48 percent usage of drivers of 
large trucks. And so we need to get to them, as well.
    The Chairman. Senator Inouye?
    I'm going to go vote and then come right back.
    Senator Inouye [presiding]. On your seatbelt statistics, is 
there any correlation on age? We hear so much about students 
and teenagers. And, if so, is there anything specially done in 
this bill?
    Secretary Mineta. Your statement that there are age 
differences is absolutely correct. The highest group that is 
restrained are infants, toddlers, followed by small children. 
And when we get to the teen years, it's the lowest of any 
group. In fact, males between 15 and 34 are the least likely to 
buckle their safety belts, and yet they're the most likely to 
have a crash.
    The thing that affects that part of the population the most 
is not fear of death, but it's the fear of getting a traffic 
ticket, which is why a primary belt law, such as you have in 
Hawaii--and, by the way, congratulations on your over-90-
percent use rate--that's why a primary belt law is going to 
have an effect on that part of the population.
    Senator Inouye. Mr. Secretary, what do you think of the 
proposal Hawaii has put up that you should extend the bus 
funding, intermodal bus funding, to include port facilities and 
cruise ships?
    Secretary Mineta. Well, we had not considered the issue of 
the cruiseline industry or the passenger side. What we were 
trying to do is to deal with the intermodal connectivity 
between ports and rail facilities, in terms of the gateway 
proposal. And I'll have to study that, in terms of the impact 
on the funding level that we have in this legislation if we 
were to extend it to passenger and cruise ships.
    Senator Inouye. Mr. Secretary, I'll have to go to vote, but 
may I submit my questions for your response later?
    Secretary Mineta. Absolutely, and I'll respond for the 
record.
    Senator Inouye. I thank you very much.
    Senator Hollings [presiding]. Mr. Secretary, with respect 
to the bill before us, it's entitled the Safe, Accountable, 
Flexible, and Efficient Transportation Equity Act, and you call 
it ``the largest public transportation initiative,'' in your 
testimony. Within it, we have an authorization of $250 billion 
over 6 years for highways. We've got millions in here, 
billions, for transit programs. There's $25 million, actually, 
for high-speed rail planning, but nothing for low-speed rail, 
nothing for Amtrak.
    Now, you and I have been going through this exercise, and, 
you know, the Administration keeps giving me, either through 
you or through Secretary Jackson, ``reform, reform, reform.'' 
You don't come before the Committee today with even a greater 
number of deaths and say, ``Reform safety and then we'll 
provide the money.'' So let's not talk about reforming Amtrak 
and when we'll give you some money. We've been doing this thing 
for two and a half years. Where is the money for this most 
efficient, flexible transportation, or the largest public-
transportation initiative in the history of the country, 
where's the money for Amtrak?
    Secretary Mineta. Amtrak reauthorization legislation is in 
the process of being put together right now, and I----
    Senator Hollings. But we keep hearing that. That's what we 
were told. You know, but when I was Chairman of the Committee, 
that's what you told us. We reported out a bill from this 
Committee by a vote of 20 to 3, and we held the bill up on the 
floor, because you were going to submit something. That was 
last year. Last year. You all were ready to submit something.
    Do you believe that there ought to be a public passenger-
rail service in this country?
    Secretary Mineta. Yes, indeed. And that's----
    Senator Hollings. And how do you get it? You've got a good 
man in Gunn. We did reform that part of it, I'll agree. But 
that's been over a year. And we're going lose him unless you 
give the money.
    Secretary Mineta. No, but I think that with the 
reauthorization legislation that we will have sometime this 
summer, that we will be in a stronger position, in terms of 
strengthening Amtrak and its services, in terms of intercity 
passenger rail service.
    Senator Hollings. We'll get it before August break?
    Secretary Mineta. That is my hope, sir.
    Senator Hollings. Well, I know you're an old-time 
legislator just like me, and this is sort of embarrassing, 
because we keep on studying it. We keep on talking about 
reforms and everything else of that kind. And either we're 
going to have a good public transportation--which would help in 
the safety area, which is the principal interest, of course, of 
this Committee. You get a good, nice Amtrak appropriation here, 
where we can really start making some improvements and 
everything else like that, there will be improved participation 
and passenger service, and we'll take some off the highways 
that are getting cluttered. You just can't pave all of America. 
You and I agree on that. And I don't know of a single passenger 
rail service in the world that makes a profit. Do you know of 
one?
    Secretary Mineta. Well, I think what we are contemplating 
doing, of separating the infrastructure from the operation of 
the rail system, would do that, would give the operating 
company the possibility of making a profit.
    In terms of what Germany, France, Japan do, they have the 
Federal Government doing the infrastructure, and then they have 
an operating company, that is not subsidized by the Federal 
Government in those nations, operating the rail system. And so 
the Federal Government there provides the rail-down support, 
and the operating company does the balance. And they're 
operating with a profit.
    And so here we're envisioning doing something similar to 
that with the rail infrastructure being held by the Federal 
Government with capital assistance with the States on the 
capital side on the infrastructure and an operating company 
that would be non-subsidized by the Federal Government.
    Senator Hollings. Well, at least that submission would give 
us something to run with. But we only own about 750 miles of 
that 22,000 miles. So you say we're going to really make 
ourselves accountable for the 22,000 miles?
    Secretary Mineta. Well, something as the compact of between 
States and----
    Senator Hollings. I know we're going to have the compact 
between the States. In fact, the States are ahead of us. In 
fact, they've got a $12 billion initiative out in the State of 
California, your state----
    Secretary Mineta. Oh, absolutely.
    Senator Hollings.--and they're ready to go.
    Secretary Mineta. Washington, Oregon, and California.
    Senator Hollings. That's right, it works out there. So 
they're way ahead of us. We can't get a billion to keep it up 
and keep it going. There's one State that's got $12 billion, 
and it's working, and it's your State. So I know you know 
better. I know that. But when we're going to take over the 
22,000 miles and--that's fine business with me if we can take 
it over. You won't find a company that wants to operate, on a 
private basis, any of these things. They might be doing that in 
Japan or whatever it is if we look further. But we've looked 
for those to operate right up in the Northeast, where they make 
a profit, incidentally. In fact, we use the profits there to 
keep the rest of it going.
    Secretary Mineta. And, of course, in the Northeast, Amtrak 
owns the rail, itself.
    Senator Hollings. Well, that's the 750 miles----
    Secretary Mineta. That's right.
    Senator Hollings.--that's----
    Secretary Mineta. Correct.
    Senator Hollings. Yes, but we're talking about a national 
rail system. You know----
    Secretary Mineta. That's----
    Senator Hollings.--our Chairman, Senator Hutchison, she and 
I have emphasized that in previous hearings, that we want a 
national system, not just a little bit here and a little bit 
there, we need a national plan from the Department of 
Transportation. And you're the Secretary, and I know you know 
this subject, and I know you come from whence it works, and 
they put up money to make it work, but we'll get every kind of 
bill here, and we can't get any money. We can get it for high-
speed rail, but nothing for low-speed rail.
    Secretary Mineta. Well, what we are anticipating, since the 
other 22,000 miles you're talking about are owned by private 
rail, would be the contracts with those private rail companies, 
who generally are operating at 79 miles per hour, that we would 
want to go up to 125, 130 miles-an-hour track capability.
    Senator Hollings. You've got to get the road beds fixed for 
that.
    Secretary Mineta. That's right, and that's where we would 
be paying the rail companies, in terms of improving the rail to 
be able to have the trains be able to run at those sustained 
speeds. The other thing----
    Senator Hollings. Those are--the private companies would 
still own the rail beds, and we'd be paying for it.
    Secretary Mineta. Yes, sir. We would be taking the 
improvement up to the speed that we would want our trains to be 
running at.
    Senator Hollings. Very good. So we appreciate it. The 
sooner that we can get that, you know how it is, we'll be gone, 
and another year will pass and then we'll get into next year's 
election.
    Secretary Mineta. Well, the Hollings rail reform 
legislation will be here soon.
    [Laughter.]
    Senator Hollings. No, I'm not like Thurmond. He had to have 
it named after him before he'd move.
    [Laughter.]
    Senator Hollings. Named everything but the ocean down 
there, we used to say. The lakes and everything else.
    [Laughter.]
    Senator Hollings. The Committee will be at ease, subject to 
the call of the Chair, who will be back momentarily here from 
his vote, unless, Dr. Runge or Ms. Sandberg, you've got 
something to offer at this particular time.
    Dr. Runge. Nothing about trains, Mr. Hollings. I'll sit 
back and be at ease.
    Senator Hollings. It's just--the question was asked--do you 
agree or disagree? What accounts for the increase in highway 
deaths?
    Dr. Runge. Well, this year, I can say fairly safely that it 
is reflective of the increase in the vehicle miles traveled on 
the highways. The rate of fatalities in the late 1960s was 
about five fatalities per 100 million vehicle miles traveled. 
And so it has gone from 5 to 1.5 over that period of time. So 
we are making progress, in terms of the rate, but the number is 
what is so disturbing. We've hit a wall, where the numbers go. 
But we believe that this public health epidemic has a cure, and 
we're hoping to get Congress' support to encourage the States 
to do what needs to be done to fix it.
    Senator Hollings. Thank you very much.
    The Committee will be at ease.
    [Recess.]
    The Chairman [presiding]. I apologize, Mr. Secretary. 
You're very aware of the way that--the incredibly efficient way 
in which we operate here.
    [Laughter.]
    The Chairman. What are the principal differences between 
the existing Corridors and Border Program and what you are 
proposing, Mr. Secretary?
    Secretary Mineta. Well, what we have done is to separate 
the Borders and Corridors Program and given emphasis to the 
corridors. And what we would like to do is to develop, again, 
the economic gateways that are present to be connected and, 
through the Corridor Program, be able to deal with both the 
northern border, as well as the southern border.
    The Chairman. Thank you.
    Ms. Sandberg, do you have anything more to report on the 
opening of the border?
    Ms. Sandberg. No, sir. We are still looking at the options 
that we have. And, as I mentioned at the confirmation hearing 
on the 8th, we have moved forward with the EIS, and the 
Administration has not made a decision yet on the appeal to the 
Supreme Court, but we're working on that.
    The Chairman. Dr. Runge, the rollover accident issue in 
SUVs, safety of SUVs, all of that stuff, do you have any 
additional reports to be made on that issue? Have you reached 
any more conclusions?
    Dr. Runge. Mr. Chairman, you capsulized it exactly right. 
You mentioned that 25 percent of all fatalities and a third of 
occupant fatalities are, in fact, due to rollover. When I was 
here in February, we were promising you a comprehensive report 
from our innovative project teams. I'm happy to report that 
they are ready for publication as soon as Mr. Secretary says 
it's OK. To do so, we will be briefing him very shortly.
    We have some potential solutions to the compatibility 
issue. We understand what needs to be done with respect to 
rollover. Those are very difficult to regulate, given the state 
of the research that we have now, but we will be seeking to do 
that research in order to support future initiatives in that 
direction.
    The Chairman. Good.
    Were any other Members coming back? Does staff know? 
Senator Breaux will be returning, so I would ask your patience 
for a couple of more minutes while he returns.
    And I guess, Secretary Mineta, I'd like to ask about the 
railroad improvement projects. How would they be handled under 
this program? In other words, would the railroads be eligible 
to apply for funds so long as they agree to a 20 percent match, 
or would these projects have to be supported by a local match 
of the States?
    Secretary Mineta. Well, the match would be a requirement. 
That can be made up of private sources, as well as public 
funding, as well. And so that it could be both public and 
private sources of funding for the match.
    The Chairman. Good.
    I have no further questions, so I'm going to wait--could 
you check on Senator Breaux? I hate to deprive Senator Breaux 
of his opportunity to interrogate you, so----
    [Laughter.]
    The Chairman.--wait a minute and determine his whereabouts. 
And how are you----
    Secretary Mineta. He sat to my left on the Public Works and 
Transportation Committee, and I----
    The Chairman. We all have our crosses to bear.
    [Laughter.]
    Secretary Mineta.--and I wanted to Chair his Breaux for 
Senate Committee so that I'd be able to move up one seat in 
seniority.
    [Laughter.]
    The Chairman. How are you feeling, sir?
    Secretary Mineta. Very well, and I appreciate your concern 
during my hospitalization and your cards and calls.
    The Chairman. Well, we're very happy to see you back, and 
we appreciate your service. And we're going to have to fight a 
lot of battles in this reauthorization thing, and we appreciate 
your early and very in-depth involvement in it.
    You know, it's hard for me to explain to my constituents 
this donor State issue, and I really hope we can make some 
progress in that direction, because every State has their own 
particular reason to get more money--older States, with aging 
infrastructure, growth States, like yours and mine, with 
dramatic new requirements--but it just is not fair what's been 
going on over the last several years. And perhaps with the 
elimination of some of these discretionary programs these 
monies just wouldn't be diverted. Isn't that one of the 
consequences of your proposal?
    Secretary Mineta. Yes, sir, it is. The other thing, too, it 
does give greater flexibility to the local and State people to 
be able to direct their resources to what problems they see 
facing them, because when you have categorical programs, it's 
sort of one size fits all, and various States have individual 
problems that face them. And so categorical programs limit the 
ability of the State leaders to be able to direct their 
resources. So by going to, let's say, from five programs in the 
safety area to three, and block-granting it, it gives the State 
people and the local people better ability to direct their 
resources to where the problems are.
    The Chairman. Thank you. You're very fortunate, the 
Chairman of the Breaux for Senate Campaign is prepared for you.
    [Laughter.]
    Senator Breaux. Oh, boy, some truth to that, I'll tell you.
    Thank you, Mr. Chairman. Thank you for keeping it open. And 
I thank my good friend, Norm Mineta.
    The SAFETEA bill? SAFETEA?
    Secretary Mineta. Absolutely.
    Senator Breaux. Who in the world thought of that?
    [Laughter.]
    Secretary Mineta. Well, it was the same person who thought 
up ISTEA.
    Senator Breaux. ISTEA to SAFETEA, that's great.
    Well, thank you. This is not a--the bill is not going to be 
one that's going to be sunsetted over a short period of time, 
like the tax bill.
    [Laughter.]
    Senator Breaux. So we can depend on it for the whole 
period?
    Secretary Mineta. That's right.
    Senator Breaux. Yes.
    I was just wondering, in the areas of safety on which this 
Committee has the jurisdiction over--and we note that we have--
with regard to safety, we have the Federal Motor Carrier Safety 
Administration, which basically deals with truck safety. And 
then we have the National Highway Traffic Safety 
Administration, which deals with overall traffic safety. I 
mean, we have two administrations dealing with safety. Has 
anyone ever thought about combining the two and having an 
administration within the Department that deals with safety 
over the Nation's highways? I mean, why do we have to have one 
that looks at--a whole administration that looks at truck 
safety and another whole administration that does overall 
traffic safety? Couldn't we combine the two and be more 
efficient?
    Secretary Mineta. Well, I think in terms of the nature of 
the operation of private passenger vehicles and that of 
commercial vehicles is different and ought to have that kind of 
specialty addressing those two areas.
    Senator Breaux. Well, I mean, one's a truck and one's a 
car. But, I mean, I know that's different. But, I mean, other 
than that, we're talking about safety on highways by things 
that roll across the highways, and we've got two separate 
administrations, and one does trucks and one does cars.
    Secretary Mineta. But the safety of trucks is vastly 
different from the safety of private passenger vehicles.
    Senator Breaux. Well, we could spend a lot of time talking 
about that. But, I mean, you've got a driver in each one of 
them. You want them to be competent. You want them to follow 
the signals. You want them to not be overloaded. But, for the 
life me, just looking at it, I can't--I just looked at this, 
and we've got an administration that deals with truck safety 
and--it's one thing to have one person dealing with truck 
safety and another person that deals with car safety. But do we 
need an entire administration just for cars and an entire 
administration just for trucks? I think somebody ought to look 
at that. We're talking about efficiency in government, the fact 
that we've got two separate administrations dealing with safety 
on the roads, and one that can only talk about trucks, another 
one only can talk about cars, to me, doesn't make a lot of 
sense. Just a thought.
    Secretary Mineta. We'll take a look at that, Senator.
    Senator Breaux. Now, everybody in these two administrations 
aren't going to want you to do that. If you ask them, ``Do you 
think we ought to eliminate one of you,'' you know what the 
answer's going to be, ``Oh, no, we can't do that, because we've 
never done it before.'' But, you know, when you're talking 
about efficiency in government, to me, for the life of me, I 
cannot understand why we have one administration that deals 
with truck safety and a separate administration that deals with 
car safety. If we had bikes on the highway, we'd have to have 
another administration for motorcycle safety. It's all safety, 
and it's all by operators of vehicles on the same highways. 
Anyway, just a thought. I think you ought to look at it.
    The other thing that I wanted to get into in a way is the 
safety thing. Back in 1999, on Mother's Day, in Louisiana, in 
my State, 22 people lost their lives. It was a horrible 
accident involving a motorcoach, a bus. And the bus driver was 
fatigued. He had several serious medical conditions. He was 
under the influence of sedatives. He was under the influence of 
cocaine. The guy should have been in prison, not behind a 
wheel. And after that, the NTSB made recommendations and moved 
forward in this area, took steps to strengthen the medical 
certification process, as I understand it.
    And then 3 years later, in June of last year, four more of 
our Louisiana citizens were in that horrible bus crash over in 
Garland, Texas. The driver of that bus was fatigued. He was 
under the influence of sedatives. He was under the influence of 
cocaine. Same type of thing. The guy should have been in jail, 
not behind a bus with innocent citizens in it. He also 
falsified his medical certification records. This guy was a 
criminal and we were letting him drive under some--for some 
reason, a bus with people.
    In July, the Department issued a final rule disqualifying 
commercial motor vehicle drivers who have lost their licenses 
after having been convicted of a traffic violation driving a 
noncommercial vehicle, automobile. And I think that is a really 
positive step that you all did. The final rule also 
disqualified anyone who had been convicted of committing a 
drug- or alcohol-related offense. Again, a real positive step 
that the Department has made. But I think that more needs to be 
done, because we still don't have the final regulation out on 
rules regulating the medical fitness of commercial drivers.
    And I'd like to ask you, or anyone, Ms. Sandberg, about 
that. Why has that not been done? Because when the state 
trooper stops a bus driver, for instance, they can check on the 
commercial driver's license--any charges against it, any 
violations against it--but they currently, as I understand it, 
do not have the capacity or the ability to really check out 
that medical certification. It could have expired. They don't 
know that. It could have been falsified. They have no real way 
of following that up. The guy could have been turned down by 
five medical doctors and finally found some outlaw doctor who 
just signed it for him. And there's not enough ability to 
follow up on the commercial licenses certifying their medical 
fitness. The rule has not yet been issued. I know you all tried 
to make them work it out, but if they can't work it out, we're 
going to have to do the rule without them.
    Can anybody bring me up to date on that?
    Secretary Mineta. Let me have Administrator Sandberg deal 
with that.
    Ms. Sandberg. Thank you, Senator.
    Yes, we have been working on this specific issue, and out 
of the NTSB recommendations that came out of that bus crash. 
The first thing that we are doing right now, which is to--we 
will have a notice of proposed rulemaking out by December of 
this year that ties the medical certification to the commercial 
driver's license. That's the key component there.
    Senator Breaux. When is it expected?
    Ms. Sandberg. We're expected to have the notice of proposed 
rulemaking out by December of this year. And then we'll take 
comment, and then we'll get the final rule out.
    Some other things that we did out of those recommendations 
from the NTSB was, one, change our medical certification 
process so that doctors could understand what was required. And 
then in this reauthorization proposal that you see in front of 
you, we have a number of other provisions that strengthen, 
specifically, the medical component. That's to put together a 
medical review board, as well as certifying medical examiners, 
so that we have the appropriate medical examiners actually 
making the medical decisions on these individual drivers so 
that they're not making improper decisions. For example, the 
Louisiana crash, the doctor that certified that individual was 
aware of some medical problems and went ahead and certified 
that driver. That was one of the weaknesses the NTSB saw.
    And so we have some provisions that are in this 
reauthorization proposal that allow us to move forward to 
tighten up those medical provisions.
    And then the last is a component--and we're working through 
the Department right now in looking at tying any positive drug 
and alcohol test and having a database on that so that we can 
identify any drivers that have had positive drug and alcohol 
tests previously.
    Senator Breaux. In your negotiations with the industry, did 
they agree with this, or did--they were not able to agree with 
this, or what was the--they couldn't work it out?
    Ms. Sandberg. Industry agrees with this provision. They 
would like to know when drivers have had previous positive 
medical--alcohol or drug tests, because it's to their benefit 
that they not put these people behind the wheel of their 
vehicle, and so they are working with us on those specific 
procedures.
    Senator Breaux. It seems that the insurance industry would 
also feel very strongly about that. If you're going to insure 
my fleet of commercial vehicles, for heaven's sake, have people 
who have not been convicted of driving under the influence or 
with drug violations behind the wheel, because your rates are 
going to go sky high. It should help them with their liability 
rates with the new type of certification that this would 
require.
    I would just urge you all to do it as quickly as we 
possibly can. I'm glad to hear that timetable.
    I would say to my colleague from Mississippi, I was very 
pleased to learn from the Secretary that the SAFETEA bill 
proposal has no sunset provisions and that it's going to be 
there straight through.

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. It has a sunset. It's immediate. Before you 
leave, you might want to hear some of these comments, if you 
could just stay a second more.
    Mr. Secretary, it's good to see you again. How are you 
doing?
    Secretary Mineta. I'm doing well, sir.
    Senator Lott. Good. We appreciate you coming back before 
the Committee. And I know you're used to carrying a heavy load, 
and I have to say, I think you've got one in this bill.
    The first point is, do you remember what bill it was that 
President Ronald Reagan had his veto overridden by the 
Congress? The biggest one?
    Secretary Mineta. I would say it was highway----
    Senator Lott. Oh, highway bill, right. So I hope we're not 
headed down that trail now, but----
    [Laughter.]
    Senator Lott.--I just want to emphasize that a veto threat 
does not scare me at all on a highway bill, number one.
    [Laughter.]
    Senator Lott. Number two, for the folks with you and others 
advocating SAFETEA, do you know what the best thing to do for 
safety on the highways is in America? You know.
    Secretary Mineta. Construction.
    Senator Lott. You got it. Build highways. And I'm not 
talking about a whole lot of new highways. Make the ones we 
have safe. Four-lane them. Widen these bridges. Lay some 
asphalt. Have a highway bill that's not diverting money on all 
this extraneous stuff.
    So, first of all, the $247 billion, 6-year bill is 
inadequate. We're going to be way above that when we get 
through.
    Now, you more than double funding for highway safety, a 100 
percent increase, while the core program only grows 4 to 9 
percent. I think that's a problem. Do you really think you're 
going to be able to eliminate highway discretionary programs? 
You know we're not going to do that. We're going to have some 
line items. In fact, you know who knew the most about the 
highway needs in California, in your district when you were the 
Congressman? You.
    [Laughter.]
    Senator Lott. Not the Secretary of Transportation or some 
safety person or some other person. You knew where the greatest 
crisis was. And so the very idea that you think we're not going 
to have some earmarks, I think somebody's dreaming.
    Now, having said that, for instance on your Borders and 
Corridors Program, I'm really worried about that program, 
because you split it--there are two elements I'm really 
concerned about. One, you spend a billion dollars on planning. 
You know, instead of putting that money into actual 
infrastructure, actually building things, you're going to spend 
a billion bucks over the life of the bill on planning uses, not 
highway construction uses? And, at the same time, you don't 
fund, for instance, remote sensing, which is one of the best 
things you can use to plan the best, the safest, and the 
environmentally best route. So you don't fund the remote 
sensing program in here, or you don't authorize it.
    Then you want to spend a billion dollars on planning. We 
have one thing we're working on, along with the Gulf Coast of 
Mississippi, to move the railroad off the Gulf Cost, which 
dissects every town, and to run north of Interstate 10 or run 
in with Interstate 10 to get over to New Orleans. So we've 
gotten some planning money. They spent about 5 million bucks, 
and they showed up with the most ridiculous thing I've ever 
seen in my life. I could have written it out on a napkin at a 
dinner table and had a better plan than they came up with, and 
we'd blown five million bucks.
    So I guess I'm just saying, just put a billion bucks into 
this planning, it looks to me like it'd be better to cut that 
way back and put a lot more of it into actual construction or 
ready-to-go projects. I know you're an advocate of that. You 
think that's one way to help the economy. Where we've got 
these--you all have got a term for it--but you've got these 
projects, you've already had the planning and the environmental 
impact statement and all of that, and they're ready to be 
built. That would be something that would really be good for 
the economy and would help save lives. And then you also 
eliminate--as a State, you define the borders program--you 
know, you come up with a plan, basically, that eliminates 
States like my own State of Mississippi, even though we're on 
the Gulf of Mexico, unless you--let's see, I'm trying to 
remember--who is it--the way you define it, only States like 
Arizona, Canada, Idaho, those that border Mexico and Canada are 
included, even though a lot of us have border and corridor 
possibilities.
    And then you also allow for our money to be spent to 
construct projects in Canada and Mexico. Do I understand that 
correctly? Can you respond to that, Mr. Secretary?
    Secretary Mineta. We have one on the Yukon Highway. That's 
a continuation of a program that's existed with Canada for I 
don't know how many years, but it's one that follows all the 
way on up into Alaska.
    Senator Lott. Is it so we can get from the Lower 48 to 
Alaska?
    Secretary Mineta. Yes, sir.
    Senator Lott. It's not so----
    Secretary Mineta. And there has been----
    Senator Lott. It doesn't, for instance, over--it won't be 
used, for instance, from Maine into Canada? I'm not picking on 
Maine. It's just that I don't think the American people think 
too much of the idea that we're taking our highway money and 
spending it in Canada or Mexico. I hope that you think about 
that.
    Then you've got a $7 million, 6-year, blue-ribbon 
commission to study highway safety needs and develop realistic 
national safety goals for reducing highway fatalities. I want 
to do that, too, but that's $42 million for a blue ribbon 
commission to do more planning, and so forth.
    And I understand that you take $1.5 million of funding out 
of the Airport and Airway Trust Fund for the Transportation 
Energy and Environment Program. Is that correct?
    Secretary Mineta. That's correct. That's under a Clean Air 
Act program to have vehicles at airports that are not emitting 
air pollution, because there are so many tugs and tractors, 
other kinds of vehicles at airports, and so that's the purpose 
of that program.
    Senator Lott. Well, I think you got my drift here. And I 
know you well enough to know that you understand what I'm 
saying and why I'm saying it. So rather than asking you five or 
six questions based on what I was talking about there, let me 
ask you to give me a generic answer. I'm not real impressed 
with this. I think you're wasting tons of money, and we ought 
to be building and repairing roads, building four-lane roads to 
keep people from being killed on narrow two-lane roads, like my 
father and like my daughter.
    I can give you a school bus case, too. My daughter's 
daughter is going to be riding a school bus soon to where 
recently, because of a narrow bridge, you know, a truck scraped 
the side of the bus spewing glass all into the bus onto the 
kids. Now, you want to help make kids safer on buses, how about 
some bridges that are not so narrow you can't have a truck and 
a bus pass on the same bridge at the same time?
    So give me something that makes me feel better.
    Secretary Mineta. First of all----
    Senator Lott. I'm a loyal supporter of this Administration, 
and I'm a long-time friend of yours, but this is not pretty.
    Secretary Mineta. Well, first of all, Senator Lott, this 
bill is the largest infrastructure investment in surface 
transportation by any administration. It's larger than ISTEA, 
larger than TEA-21. And the $247 billion that's in this bill is 
the largest investment in surface transportation projects.
    Now, there's been a great deal of discussion about how 
much, in dollars, is in this bill. But, by the same token, I 
would hope that the programmatic reforms that we have in this 
bill will not be overlooked because of the amount of money 
that's in this bill. And we think that both because of the 
emphasis on SAFETEA on safety that the programs that we have 
here to reduce traffic deaths, to reduce traffic injuries, is 
important at this time.
    For a number of years, we've had the traffic deaths at 
about 41-42,000. For the first time, this year we've broken 
42,000. And so that's why the emphasis on safety, in terms of 
reducing traffic deaths and injuries. The kind of economic cost 
to the Nation is something that we can't afford to continue, 
and so that's why the emphasis on safety in this legislation.
    Senator Lott. Well, I hope that you will take a look, 
again, at do we need a $1.42 billion or more for planning and 
studying instead of actually doing something about it, even if 
it's not building roads. Implement programs. I understand 
experts need to take a look at things, but I would hope that we 
would get that under a----
    Secretary Mineta. Well, this is something----
    Senator Lott.--little bit better control.
    Secretary Mineta.--we'll be working with all of you, in 
terms of developing.
    Senator Lott. And will you take a look, also, and let us 
know what we might can do, the best way we can work with you on 
this Borders and Corridors Program? Because I can see that 
we're not going to be inclined to want to do it the way you're 
got it set up, and if you would give us some input, that would 
help.
    Secretary Mineta. Shall do.
    Senator Lott. I promise you, Mr. Secretary, despite the way 
I sound, I'm going to find a way to be an ally, I think. And I 
certainly am not for the gas tax that's being advocated by some 
in the House of Representatives. So then the question is, 
``Well, how do you get to $320 billion,'' which is where we're 
going to wind up being. It won't be easy, but there are some 
things you can do, or we can do, working with you, you know, 
that can get this number up. That's where we're headed. And I 
think if the Administration drags their feet, we're going to do 
it anyway, and it would help if the Administration would engage 
us and try to help us do it in the most sensible way.
    Secretary Mineta. Right.
    Senator Lott. I can just let you write it, Mr. Secretary, 
and then everything will be fine.
    Well, I guess we're going to do a slow roll on you. I'm 
glad to see you, again, Mr. Secretary. And I see Senator 
Lautenberg is here. I thank you very much. Just remember how 
you used to beat up the Secretary of Transportation when he or 
she came before your Committee.
    [Laughter.]
    Senator Lott. Good luck, Mr. Secretary.
    Secretary Mineta. Thank you very much, Senator.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg [presiding]. Mr. Secretary, nice to see 
you again. I'm not sure you're still Norman, but, listen, Mr. 
Secretary, it's good to see you. And I promise to give you the 
same treatment I would have had you come from our side of the 
political aisle.
    [Laughter.]
    Senator Lautenberg. Just as nice. I mean, you know.
    Senator Lott. He came from your side.
    Senator Lautenberg. I know. I said I'm going to treat him 
the same as I would have had he not.
    Anyway, I'm glad to see we arrive at an important moment in 
our planning and budgeting. And the Highway Reauthorization 
Bill, on its 6-year renewal, manages to be one of Congress' 
largest undertakings. And the Senate EPW Committee addresses 
most of the subject matter. But Banking reports out the mass 
transit title, and this Committee, Commerce, is responsible for 
safety, Dr. Runge, and rail programs. And I've long been 
interested in making our roads and highways safer.
    During my first three terms, I wrote some bills, now law. 
Increased the drinking age from 18 to 21. That was in 1984, 
when President Reagan was in charge and Elizabeth Dole was the 
Secretary of Transportation at the time. We established .08 as 
the blood-alcohol standard for drunk driving, and that also 
saves a bunch of lives. Increasing the drinking age, I think, 
is estimated to be about a thousand lives a year of young 
people, a thousand families that don't have to mourn the loss 
of a child, and it's a really wonderful outcome.
    And I wrote the ban on triple-trailered trucks from those 
States that were not grandfathered. And we're still fighting 
over that. It worries me that we're going to be dealing with 
that again, but I think that good judgment will prevail and 
we'll not permit them on roads that are not equipped for them 
and where the menace is a very serious one.
    The 1991 highway bill, titled ISTEA, and that was a long 
time ago. ISTEA. We called ISTEA--the 1997 reauthorization that 
was titled the Transportation Equity Act. We call that one TEA-
21. And I understand now we're going to be looking at the 
SAFETEA. A lot of tea drinkers here. And the title may be 
catchy, but I think it's a little bit of a misnomer, because I 
don't see proposals in here that are going to enhance highway 
safety. I'm afraid it's going to be diminished. And the 
proposal that allows States to raise safety programs so they 
can build more highways, I think, is misguided.
    Last year, almost 43,000 people died in traffic accidents, 
so the Administration's failure to take a leadership role here 
is deeply disappointing, and I'd like your comments, Mr. 
Secretary, and I'll be finished with my statement in just a 
minute. And for it to take the position that if a State wants 
to use Federal money for critical highway safety programs to 
build more highways, it's disturbing.
    Last week, I attended a press conference to remember the 
15th anniversary of the Kentucky bus crash, an accident caused 
by a repeat drunk driver, killed 27 people, mostly children, 
and injured another 30. And since then we've had the equivalent 
of another 10,400 Kentucky bus crashes. Last year, alcohol-
related traffic fatalities rose for the third consecutive year, 
nearly 18,000 people died on the highways. And yet the safety 
proposal has just $50 million for impaired driving control 
programs, and that's less than current funding.
    So I know that Dr. Runge, the head of the National Highway 
Traffic Safety Administration, is a staunch advocate of safety 
programs, and we talked earlier in a hearing that this 
Committee held earlier this year. I think Dr. Runge, it's fair 
to say, supported .08 and the increase in the legal drinking 
age. And the bill does have some incentive for States to pass 
mandatory seatbelt laws. But I fear that there isn't enough 
safety input on the Administration's bill. It falls short of 
what we need to do as part of the reauthorization to make our 
roads and highways safer.
    The Administration's proposed funding levels for safety 
programs are insufficient in making the funding fungible so 
that it can be used for other purposes. The challenge is common 
sense.
    I'm working with Senator DeWine, from Ohio, on legislation 
to improve highway safety, and I look forward to working with 
my colleagues here on the Commerce Committee to get these 
provisions incorporated into our segment of the reauthorization 
bill that makes it way to the Senate floor.
    And, Secretary Mineta, the Administration's proposal allows 
States to flex their highway safety funding, allowing them to 
dip into the safety funds to help build more roads, rather than 
address behavioral problems like seatbelts and drunk driving. 
Based on a recent GAO report, we see that when given a choice, 
States are more likely to spend money on infrastructure than 
addressing the behavior problem.
    And I know that you're familiar with the problem, and as 
we've heard it several times this afternoon, almost 43,000 
people died on our roads. Why doesn't the Administration's 
proposal take more of a leadership role in addressing these 
safety problems, Mr. Secretary? We've seen it in the past, with 
the establishing of national standards for seatbelt use, drunk 
driving standards, like .08, open container. Is the Federal 
Government moving away from a leadership role on the safety 
issues?
    Secretary Mineta. Not at all, Senator. This bill, first of 
all, in terms of the amount of investment it makes in 
infrastructure, in surface transportation programs, is the 
largest investment by any Administration, larger than ISTEA, 
larger than TEA-21. And the $247 billion is the largest 
investment.
    Now, at the same time, the emphasis is on safety, and we 
have more than doubled the amount of money that's in the safety 
program. And one of the things that we have done is to allow 
flexibility at the State and local level in order to allow 
those transportation leaders to be able to direct their 
financial resources to where they think the problems are.
    I think when you have categorical programs, it's sort of 
one size fits all. But in terms of looking at State by State, 
they're facing the various problems that vary from one State to 
another. And what we have built into this program is the 
flexibility of those States to be able to take the financial 
resources that they have and direct them to the immediate needs 
of those States.
    Senator Lautenberg. Well, is it a question of either/or? 
Either it goes to safety or to other needs? Building more 
roadway and forgetting something about safety? There's one pot 
there, and if it's to be used for more than one purpose, 
obviously one is going to suffer. And if we had the sums that 
we had last year devoted to it, we'd at least look like we're 
as concerned about safety this year as we've been in the past. 
And this is a long-term proposition. We're talking about a 6-
year reauthorization. I think that we ought to make certain 
that safety isn't compromised in any way.
    Look what we've done in the past. We've imposed penalties 
for States that didn't comply, as you know. I'm sure that .08 
now kicks into the penalty phase if States don't do it. One of 
the States is my own, of New Jersey, has yet to pass the bill. 
It's disheartening for me. We're talking a life-saving thing 
and estimated to be perhaps 500 lives a year across the country 
if all the States comply.
    So I'm surprised that--given the choice. I mean, one 
wouldn't do that in aviation, say, ``OK, you can build another 
tower or do other things to improve the safety of the system.'' 
You wouldn't say, ``OK, well, it's a question of more volume or 
safety.'' Doesn't that strike you as being kind of an anomalous 
situation?
    Secretary Mineta. But we also do have sanctions in this 
legislation as it relates to a certain issue. Maybe Dr. Runge 
could expand on this.
    Dr. Runge. Senator Lautenberg, I want to just broadly 
expand on what the Secretary said about not trying to paint all 
States with the same brush. We also know very well what the 
causes of highway deaths are. Two-thirds of the highway deaths 
are the failure to use safety belts and impaired driving. So we 
will not be able to pave our way out of this problem. I 
couldn't agree with you more.
    However, one of the things that is in the bill that is very 
important, the underpinning of the flexibility, is every 
State's development of a comprehensive highway safety plan at 
which all people--not just road builders, but all stakeholders 
in safety, must be at the table. And it would be based on 
State-specific data.
    You'll also see in our bill that we have $50 million per 
year for States to improve their highway safety data so that we 
can find out where those problems are in the State, whether 
they are behavioral, whether they are infrastructure, and that 
the money can be apportioned.
    With respect to primary safety belt laws, New Jersey is a 
classic example of why that is so important. I believe that 
your State had, if my memory serves me correctly, nearly a 20 
percentage-point increase in belt use over a few years 
subsequent to the passage of your primary safety belt law.
    So that's why you see our approach to sanctions, which is 
real incentives, real money for incentives to go to States if 
they do the right thing and pass a primary safety belt law.
    With respect to alcohol, I know that's a particular concern 
of yours, in fact it's not just $50 million a year; but, in 
fact, there is another $340 million over the bill for incentive 
grants to go to States who perform well. Their goals must be 
aligned with the Administration's goals, our goals, of, for 
instance, .53 fatalities per 100 million vehicle miles 
traveled. There will be benchmarks established for those States 
to meet, in terms of alcohol fatality rates, in order to get 
extra funding.
    But there are some States that clearly have not right now. 
There are States that couldn't get there if miracles occurred. 
So we're going to try to bring those miracles to them. And that 
is the $50 million that you see in alcohol grants are going to 
go to States that have the biggest problems so that we are not 
frittering away funds on States that don't have those problems, 
but, in fact, directing them toward where it'll do the most 
good. We want to get them to the point where they can qualify 
for those incentive grants.
    So that part is very directed, but the incentives, overall, 
will align with our highway safety goals and will allow States 
to do the right thing based on data.
    Senator Lautenberg. It's interesting, my assistant just 
handed me a note that says that GAO reported that States 
overwhelmingly chose to use open-container repeat-offender 
transfer funds for construction rather than behavioral 
programs.
    I think that tells you, first of all, that States are under 
terrific stress, as we all know. I mean, it's just--the budgets 
have gotten sour for, I think, every State in the country, and 
they're all operating with deficits.
    I wanted to ask Ms. Sandberg a question. You're aware of 
that comprehensive truck size and weight study that your 
Department completed August of 2000, and they found that--that 
study found that longer combination vehicles, the LCVs, could 
be expected to experience an 11 percent higher fatal crash than 
single-trailer trucks. The study found also that longer, 
heavier trucks cause a tremendous amount of bridge damage. They 
say $319 billion for longer combination vehicles alone. We have 
a lot of bridges, 2,350 in New Jersey which are either 
structurally deficient or functionally obsolete.
    Does the Administration take cognizance of this study? And 
is it reflected in actions that have been taken?
    Ms. Sandberg. We have been looking at the various studies 
with regard to the longer combination vehicles. And I believe, 
as I reported to the Committee before, Senator, we are not 
looking, at this point, to lift the freeze on longer 
combination vehicles. But we are looking at freight and freight 
mobility as an intermodal issue inside the Department of 
Transportation, because we do know that freight is going to 
increase by 43 percent over the next 10 years. And as we look 
at that entire issue, we need to look at how we move that kind 
of volume of freight on the existing infrastructure we have via 
highway, via rail, via shipping, and via air. And so we're 
trying to take a holistic look at that entire issue inside the 
Department.
    Senator Lautenberg. OK, but you say you're not advocating 
the release of bans on the LCVs.
    Ms. Sandberg. There is nothing in this proposal that 
advocates----
    Senator Lautenberg. I don't know whether I'll be here 10 
years from now, but we'll watch with interest to see what takes 
place, because I think it's outrageous that States should be 
asked to break the rules, their own judgment, in terms of 
safety, and say, ``OK, we'll let these things go.'' If you've 
ever seen--and I know you have--films of triples and how they 
react in certain weather conditions, there's a menace out 
there, and it just frightens the devil out of people who are on 
the road in their cars with those. It's too bad we don't have 
separate roadways.
    Last, I understand, Mr. Secretary, that my colleague, 
Senator Hollings, said something about intercity rail 
transportation. And I understand that you promised Senator 
Hollings an Amtrak proposal by the August recess. I think that 
the Administration's surface transportation proposal, SAFETEA, 
is a little short-sighted for not taking rail into account.
    And I look forward to receiving your proposal, but I don't 
know why it can't be understood that without rail, and without 
support for rail, without support for an advanced rail system--
and you know--I think we worked together in your days when you 
were in the Congress--on trying to improve Amtrak as the 
principal high-speed rail service between cities so that it 
could carry some portion of the load that we have on our 
highways and in the air.
    If Amtrak didn't operate in the Northeast Corridor, we 
would have some 10,000 flights a year more than we have 
between, let's say, Boston, Washington, and New York. And 
Amtrak carries more passengers per year than all four aviation 
companies, airlines, do in a year. All four combined from New 
York carry less than Amtrak does in a year. My gosh, one 
doesn't have to be a railroad engineer to know that we're in 
trouble. We need reliable sources of funding, and I think we've 
had them in the past, and I hope that we can get them included 
in the future in a serious way. If we look at the subsidies 
necessary to operate aviation, subsidies necessary to put into 
our highway system that go behind the straight tax revenues, I 
think we'd see that we make an investment in these things 
because they're absolutely essential.
    And I said last thing. There's one more last thing. And 
that is it may be a disconnect from the subject at hand, but I 
would tell you, Mr. Secretary, if we go ahead and privatize 
FAA, we're going to be spending an awful lot more money than we 
have, and I don't think we get the same value. And if you look 
at the experience in the U.K. and Canada, it establishes the 
fact that security on the cheap is not the best investment.
    Thank you all for--I'm sorry to have kept you. And I came 
in last, but you didn't have to, and I thank you for being 
here, and thank you for your participation.
    Secretary Mineta. Thank you very much.
    Senator Lautenberg. The hearing is adjourned.
    [Whereupon, at 4:05 p.m., the hearing was adjourned.]
                            A P P E N D I X

    Response to Written Questions Submitted by Hon. John McCain to 
                         Hon. Norman Y. Mineta
Adequacy of Overall Funding Authorizations
    Question 1. The Federal Highway Administration's (FHWA) 2002 report 
to Congress on the condition and performance of the Nation's highways, 
bridges and transit concluded that average annual capital spending over 
the next 20 years by all levels of government (in constant 2000 
dollars) would have to be 17.5 percent larger than capital spending in 
2000 just to maintain our highways and bridges. Does the 
Administration's proposal include enough additional funding, as 
identified by FHWA, to keep our roads and bridges maintained?
    Answer. As you noted, the ``2002 Status of the Nation's Highways, 
Bridges and Transit: Conditions and Performance'' report to Congress 
(C&P report) focuses on the impacts of investment by all levels of 
government combined over 20 years, rather than Federal investment 
alone. The C&P report does not endorse any particular funding level, 
and the proposed Federal-aid highway program funding levels are not 
directly linked to any C&P scenario. Instead, the program size is set 
at a level that the expected level of Highway Account revenues (from 
current taxes and the redirection of 2.5 cents per gallon of gasohol) 
can sustain and that will allow the maintenance of prudent cash 
reserves in the Highway Account.
    I would like to clarify the meaning of the ``Cost to Maintain 
Highways and Bridges'' identified in the 2002 C&P report. This term 
describes a level of investment at which future conditions and 
performance would be maintained at a level sufficient to keep average 
highway user costs from rising above their 2000 levels. It thus 
represents a more ambitious target than simply maintaining the physical 
condition of the infrastructure.
    You correctly note that the C&P report indicates that capital 
investment by all levels of government would need to increase by 17.5 
percent above base year 2000 levels in order to reach the ``Cost to 
Maintain Highways and Bridges'' level. The C&P report also indicated 
that this difference would shrink to 11.3 percent over the 2001 to 2003 
period, due in part to higher Federal funding levels in the latter 
years of TEA-21. Further shrinkage of this ``gap'' will depend on the 
level and types of Federal, State, local government, and private 
highway investment over this period.

    Question 2. FHWA also concluded that the cost to maintain and also 
make improvements to the Nation's highways would require an increase in 
average annual capital outlays of 65.3 percent by all levels of 
government. To what extent would the Administration's proposal actually 
fund improvements to our highway system?
    Answer. The ``Cost to Improve Highways and Bridges'' scenario in 
the C&P describes an investment level above which it would not be cost-
beneficial to invest. However, at this level of investment, major 
indicators of highway physical condition and operational performance 
would show considerable improvement over the 20-year analysis period. 
It should be noted, however, that this level of funding is far greater 
than historical national levels of highway and bridge investment and 
represents the maximum level of investment if resources were 
unconstrained.
    All forms of highway capital investment represent ``improvements'' 
to the current state of the system. Pavement resurfacing and bridge 
rehabilitation projects improve the quality of the existing 
infrastructure; highway expansion and ITS projects improve the 
operational performance of transportation system; other targeted 
highway investments can help improve the safety performance of the 
system. All of these types of investments are eligible activities under 
the Federal-aid Highway Program.
Corridors and Border Program
    Question 3. What is the rationale for requiring a 20 percent state 
share for border projects? Is it fair to require states to help fund 
what is clearly a national issue?
    Answer. A central concept of ISTEA and TEA-21 was added flexibility 
for State and local officials to determine how their Federally-
apportioned funds could best be invested. SAFETEA expands upon this 
principle by giving states and localities even more discretion in key 
program areas. For the border program, States have the authority to 
determine if a border project is a priority for the States. If it is a 
priority, then the state may apply for border program funds for that 
project. By requiring a 20 percent match, we are ensuring that states 
are making transportation decisions based on their needs and 
priorities.
    While projects adjacent to an international border clearly have 
national implications due to improvements in the flow of international 
commercial traffic, these projects are still considered to be standard 
Federal-aid projects. Such projects generally benefit the State because 
of increased efficiency and lessened congestion in the border area, and 
may be even more beneficial to State interests than to national 
interests.
Discontinuance of Discretionary Programs
    Question 4. As you probably know, Mr. Secretary, I am opposed to 
Members using the highway program to earmark funds for pet projects in 
their home states. So I was very interested to learn that the 
Administration's proposal would discontinue a number of discretionary 
programs. How much earmarked funding or discretionary spending would be 
discontinued in the Administration's plan?
    Answer. Almost half a billion dollars annually in discretionary 
programs are eliminated (valuing the eliminated discretionary programs 
at the levels authorized in TEA-21 for FY 2003). In most cases, the 
eliminated discretionary programs allowed increases in funding for the 
core highway formula programs. In two cases--the Intelligent 
Transportation Systems Deployment Program and the Transportation, 
Community, and Systems Preservation Program--the discretionary programs 
were converted to formula programs.

    Question 5. How much would eliminating these programs improve 
equity in the distribution of highway funds for donor states like 
Arizona?
    Answer. To the extent that the funds made available by the 
elimination of the discretionary programs are used to increase the 
funding for the core highway formula programs, they can improve equity 
in the distribution of highway funds. The Minimum Guarantee calculation 
captures funds distributed under the core highway programs (and under 
TEA-21, the High Priority Projects Program), but does not include 
discretionary allocations. The more that funds are concentrated in 
programs that ``count'' in the Minimum Guarantee calculation, the 
closer the calculation will be to the true return on contributions.
Donor States
    Question 6. Under TEA-21, through 2001, Arizona has received back 
only 87 percent of its share of total contributions to the Highway 
Trust Fund. The Administration's proposal would maintain the so-called 
90.5 percent minimum guarantee, which is not a guaranteed return on all 
highway funds. Why should any donor state, particularly those receiving 
less than a 90.5 percent return, support such a proposal?
    Answer. TEA-21 greatly improved the equity of the overall 
distribution of highway formula funds and did so in a balanced way. In 
spite of this progress, the issue of return on contributions to the 
Highway Account of the Highway Trust Fund remains the most difficult of 
all formula issues because it pits the national economy's need for a 
strong, connected highway system in every State against the desire for 
an equitable return on State contributions. Meeting both of these 
competing goals is costly and a balance must be struck. We believe that 
SAFETEA's greater concentration of funding in the formula programs will 
help.

    Question 7. What is the Administration's position on increasing the 
minimum guarantee to 95 percent?
    Answer. Regardless of any specific return on contributions, it is 
important that highway funding be distributed so as to meet important 
national needs and that the costs of providing the return on 
contributions be within the means of the Highway Account of the Highway 
Trust Fund.
Flexible Funding Pilot Project
    Question 8. The SAFETEA proposal would establish a pilot program 
that would allow up to five states to combine funds from various 
spending categories and manage their highway programs on a systematic, 
performance basis. What does DOT hope to learn from such a pilot 
program and how long do you think it would take to determine whether 
this kind of funding flexibility should be extended to an states?
    Answer. We hope to test the ability of interested states to manage 
Federal-aid highway funds on a performance-driven basis. In cooperation 
with the Department, States will need to define goals, devise 
strategies to meet those goals, and measure the success of those 
strategies. Under the pilot we would also test the success of turning 
over to the pilot participants some or all of those responsibilities 
that normally rest with the Secretary of Transportation.
    Given the long-term nature of highway projects, we would not 
anticipate a full evaluation of the pilot until near the end of the 
reauthorization period. This would position the Department and the 
Congress to consider the success of the pilot and application of any 
lessons learned in formulating future legislation.

    Question 9. Why is the flexible funding limited to certain 
categories of highway dollars? Why not allow states to use their 
highway funds to meet the transportation needs of the state, including 
transit or even intercity rail (Amtrak) service if that is a state's 
transportation priority?
    Answer. The pilot allows the consolidation and performance-based 
management of the vast majority of highway formula funds. The 
consolidated funds may be obligated for any purpose authorized under 
title 23, United States Code, which would include significant 
opportunities to use the funds for transit. We believe that it is 
important for the pilot to test the performance-based management of 
funds without the additional complication of doing so with funds 
administered by multiple Federal agencies.
Treatment of Proceeds of the Sale of Property Purchased with Federal 
        Funds
    Question 10. The Administration's proposal would allow Federal 
funds to be used by states to help fund the expeditious acquisition of 
``critical'' property needed for transportation purposes and threatened 
by imminent development for other purposes. Notably, states would not 
be permitted to retain the federal-aid share of the proceeds if a 
parcel were sold or leased. I find this curious because FHWA has 
concluded that in general, the proceeds from a sale by a state of 
excess property are ``state funds'' regardless of the Federal 
contribution to the original purpose. For instance, just this week, I 
received a reply to my September 2002 letter on this subject, informing 
me that DOT is permitting the Commonwealth of Massachusetts to apply 
approximately $86 million in funds from the sale of a building 
purchased with Federal aid to the cost of the notoriously over-budget 
``Big Dig'' and not planning to count any of the proceeds against the 
Federal spending cap of $8.5 billion. Let me also point out that this 
position is also contrary to both the opinion of the DOT Inspector 
General and the General Accounting Office (GAO). Shouldn't states 
always be required to treat as Federal funds the portion of proceeds 
from sales of excess property or facilities purchased with Federal 
funds?
    Answer. Section 1504 of SAFETEA would expand a provision of 
existing law (23 U.S.C. 108(c)) that allows States to acquire critical 
properties in advance of environmental review to protect the rights-of-
way of future transportation projects. Under current law, States may 
acquire such property with State funds and obtain Federal reimbursement 
when and if it is incorporated into the right-of-way after the project 
receives Federal approval. Section 1504 would merely allow states to 
request Federal funding at the time that such critical property is 
acquired under very limited circumstances if it is offered for sale on 
the open market. Because the property would be acquired before 
environmental review of the project, it is important to ensure that 
neither the State nor the Federal Government environmental review is 
biased by the acquisition action. To eliminate financial considerations 
from influencing the environmental process, the Federal funding should 
be undone if the property is not used for the project. To accomplish 
that result, section 1504 would provide that these critical property 
acquisitions would be exempt from section 156(c) of title 23, United 
States Code.
    By contrast, section 156(c) normally applies to property acquired 
after Federal project approval. Income may be generated by the sale or 
lease of excess property or right-of-way airspace that is not needed 
for transportation purposes. The provision is intended to encourage 
States to realize the income potential of such property and to ensure 
that the income is used for eligible transportation purposes. Before 
the enactment of section 156, those goals were not being achieved. 
Section 156 applies in many more situations than we anticipate would be 
covered by section 1504 of SAFETEA. We believe that allowing states to 
retain income generated by sale of excess property, so long as the 
Federal share of the proceeds is used for title 23 eligible projects, 
advances the purposes of title 23 and promotes streamlining, while 
reducing administrative burdens.
Project Oversight
    Question 11. The Administration's proposal includes new provisions 
to improve FHWA oversight of major projects like the notoriously over-
budget ``Big Dig'' and the Wilson Bridge. How does the proposal compare 
with the recommendations the General Accounting Office has made?
    Answer. In GAO-03-764T (a statement for the record for the 
Subcommittee on Transportation, Treasury, and Independent Agencies, 
House Committee on Appropriations), the General Accounting Office (GAO) 
summarized cost and oversight issues raised in reports and testimonies 
issued since 1995 on major highway and bridge projects and described 
options that GAO had identified to enhance Federal oversight of these 
projects. Section 1802, Stewardship and Oversight, of the 
Administration's reauthorization proposal includes several provisions 
intended to improve oversight of Federal-aid highway projects and 
address the options described by GAO. We are also pursuing stewardship 
improvements that do not require legislation, such as tracking cost 
growth on all projects greater than $10 million and evaluating cost 
estimating processes on a nationwide level in order to formulate 
guidance; developing project management guidance and a project 
management plan template; and developing a systematic risk management 
program to guide agency stewardship.
    One provision of our Stewardship and Oversight proposal in SAFETEA 
would require the Secretary to establish an oversight program to 
monitor the effective and efficient use of funds authorized under title 
23, with a specific focus on financial integrity and project delivery. 
Under this provision, the Secretary must perform annual reviews that 
address elements of States' financial management systems and project 
delivery systems. As part of the financial integrity oversight, the 
Secretary would be required to develop minimum standards for estimating 
project costs, and to periodically evaluate States' practices for 
estimating project costs, awarding contracts, and reducing project 
costs. States would be required to determine that sub-recipients of 
Federal funds have sufficient accounting controls and project delivery 
systems.
    TEA-21 amended title 23 to require States to submit annual 
financial plans to the Secretary for projects under title 23 with an 
estimated total cost of $1 billion or more (major projects). Section 
1802 of SAFETEA would further require States to submit a project 
management plan for such projects. The project management plan would 
document the procedures and processes in place to provide timely 
information to the project decisionmakers to effectively manage the 
scope, costs, schedules, and quality of the Federal requirements of the 
project and the role of the agency leadership and management team in 
the delivery of the project. The project management plan would be 
developed at an appropriate early stage in the development of a major 
project.
    Another provision would require a recipient of Federal financial 
assistance to prepare an annual financial plan for projects that 
receive $100,000,000 or more in Federal financial assistance and that 
are not subject to the requirements for major projects. These annual 
financial plans would be available for the Secretary's review upon the 
Secretary's request.
    Other options described by GAO are addressed through the agency's 
performance plan activities. For example, performance goals and 
strategies are established for monitoring project costs. Also, 
processes are established to track the progress of projects against 
their initial baseline cost estimates.
Hazmat
    Question 12. The Administration's proposal contains a number of 
provisions addressing the transportation of hazardous materials. Why 
does the proposal not go so far as to reauthorize the hazardous 
materials transportation safety program which the Senate tried to 
accomplish during the last highway reauthorization bill?
    Answer. The Administration did not consider all provisions that 
would go into a hazardous material transportation reauthorization bill 
to be relevant or appropriate for consideration in the context of 
reauthorization of the Highway Trust Fund and enhancement of surface 
transportation security. The Department of Transportation is preparing 
a hazardous materials transportation reauthorization proposal that it 
plans to submit shortly to the Office of Management and Budget for 
approval.
Freight Gateways
    Question 13. One of the most important U.S. freight gateways is 
Chicago. Nearly one-third of all rail shipments travel through Chicago. 
but shipments currently take two days or more to move through the city 
and. because of the delays. an estimated 18,000 trailers and containers 
are off-loaded from railroad flatcars and trucked across town. How 
could the provisions of SAFETEA be used to improve the movement of 
freight. both by truck and by rail. through this and other critical 
gateways?
    Answer. The percentage of freight tonnage moved on our 
transportation system is projected to increase over 70 percent by 2020. 
In response to the future freight forecasts, as well as the challenges 
confronting us today in gateway areas such as Chicago. the Department 
included several provisions in SAFETEA that support freight mobility 
and address congestion. security. safety. environmental, and quality of 
life issues associated with freight transportation gateways.
    Section 1205, ``Freight Transportations Gateways; Freight 
Intermodal Connectors,'' would make publicly owned intermodal freight 
transportation projects eligible under the Surface Transportation 
Program (STP). This proposal would allow funding of publicly owned 
intermodal transfer facilities, such as Chicago's rail yard, or 
intermodal access to such facilities, and transportation infrastructure 
modifications necessary to facilitate intermodal access to and from 
ports. This section also encourages States and localities to adopt 
innovative finance strategies for freight gateway improvements, 
including new user fees and private sector investment.
    As you note with the Chicago example in your question, many 
gateways use locally owned connector roads between the gateway or port 
and the nearest freeway(s). Many of these freight connector roads are 
in disrepair and create bottlenecks and congestion. Section 1205 of 
SAFETEA would dedicate funding for intermodal freight and Strategic 
Highway Network connectors from funds apportioned for the National 
Highway System (NHS). The amount of the setaside funding is determined 
by the proportion of freight/STRAHNET connector miles in a State 
compared to the total NHS mileage in the State, or 2 percent of funds 
apportioned for the NHS in a Fiscal Year, whichever is greater. A State 
may be exempted from the required set-aside by showing that connectors 
in the State are in good condition and providing an adequate level of 
service. In addition, SAFETEA would increase the Federal share for 
freight and STRAHNET connector projects from 80 percent to 90 percent. 
Most connectors are in local ownership and the match is often a problem 
for local jurisdictions.
    SAFETEA would expand eligibility for the Transportation 
Infrastructure Finance and Innovation Act program (TIFIA) to allow both 
public and private rail projects to qualify for TIFIA credit 
assistance. SAFETEA also expands the availability of tax-exempt private 
activity bonds to include freight transfer facilities.
Opening of the Border
    Question 14. If the Federal Motor Carrier Safety Administration 
(FMCSA) proceeds with a full environmental impact statement (EIS) [as 
required by the decision of the 9th Circuit Court of Appeals in San 
Francisco], how long do you expect the EIS will take to complete and 
implement?
    Answer. FMCSA recently issued its Request for Quotations and should 
have a contractor on-board shortly to develop the programmatic EIS that 
was required by the 9th Circuit Court for rules relating to the 
operation of Mexican trucks in the United States. Until the FMCSA makes 
that contract award to the successful vendor, we are unable to 
speculate on the exact time-frame required to develop and implement the 
EIS; however, an EIS of this magnitude is expected to take at least 18 
months.

    Question 15. What is the status of U.S.-Mexico negotiations to 
permit U.S. inspectors to conduct on-site safety audits and compliance 
reviews of Mexican trucking companies?
    Answer. The Department developed a proposed Memorandum of 
Understanding with Mexico focusing on the protocol for conducting 
safety audits in Mexico by U.S. inspectors as well as the conduct of 
similar functions in the U.S. by Mexican inspectors. That proposed 
protocol was sent to Mexico some time ago, and we are following up with 
the government of Mexico.

    Question 16. Should the inspectors and auditors hired to inspect 
trucks coming into the U.S. from Mexico be reassigned until there is a 
date certain for the opening of the border?
    Answer. Federal Border Inspectors hired and trained to conduct 
vehicle inspections along the southwest border continue to effectively 
and efficiently inspect commercial vehicles operating in the commercial 
zones along the border. Reassignment of inspectors would detract from 
improving safety along the border.
    FMCSA also has hired and trained Safety Auditors to conduct safety 
audits on Mexican carriers and has hired Safety Investigators to 
conduct safety compliance reviews on Mexican carriers, and those 
activities continue. However, due to the effects of the 9th Circuit 
Court decision, the volume of safety audits and compliance reviews has 
not approached the level anticipated.
    Reassignment of Safety Auditors and Safety Investigators would not 
be effective in the long term since they will be needed at the border 
once it has opened for long-haul commercial vehicles from Mexico. 
However, FMCSA is planning to expand training and improve the skill 
levels of those staff through temporary training assignments in other 
parts of the country.
FMCSA Administrative Budget
    Question 17. The Administration's FY 2004 budget request for FMCSA 
shows an increase of approximately $56 million in Federal 
administrative expenses, to a total of $224.4 million. What is the 
funding needed for and how do you justify such a large increase?
    Answer. In the context of FMCSA's proposed FY 2004 account 
structure, FY 2003 enacted Federal operating expenses and program 
funding levels total $168.1 million. FMCSA's total request of $224.4 
million for these activities in FY 2004 would be funded from the 
proposed SAFETEA authorization for administrative expenses. The $56.3 
million increase is comprised of the following adjustments to the base 
budget and program increases/decreases:
Adjustments to Base ($000): $9,571
Personnel Cost Increase: $2,645
    The total requested increase of $2,645 in personnel compensation 
and benefits includes:

  <bullet> $826 to annualize January 2003 pay raises (4.1 percent 
        increase to FY 2003 salaries and benefits base for applicable 
        workdays in FY 2004).

  <bullet> $1,208 to fund January 2004 pay raises (2 percent increase 
        to FY 2003 salaries and benefits base for applicable workdays 
        in FY 2004).

  <bullet> $611 for other mandatory personnel costs.
Extra Work Day: $487
    $487 to fund salaries, benefits and operating expenses attributable 
to the extra workday in FY 2004.
Technical Adjustment for FY 2002 Emergency Supplemental: $3,000
    $4.2 million was provided as part of the FY 2002 Emergency 
Supplemental Appropriation to implement Section 1012 of the USA Patriot 
Act, which mandates that a system be set up to conduct security 
background checks of all CDL drivers who have a hazardous materials 
endorsement or are applying for the endorsement. Funding was not 
requested in the FY 2003 President's Budget. $3 million is needed in FY 
2004 for program implementation.
GSA Rent: $1,777
    This adjustment to base reflects GSA increases for rent 
adjustments, lease expirations, and forced moves. The funding level 
reflects an increase in space due to staffing requirements.
OST Support Services: $344
    This adjustment to base reflects increases based on OST estimates 
for services provided.
Inflation Adjustment: $1,318
    The FY 2004 Federal Non-Defense Non-Pay Expenditure Deflator of 1.7 
percent was calculated on selected FMCSA operations.
Program Increases/Decreases ($000): $46,705
New Entrant Program--Federal Operations: $16,200
    Implementation of the New Entrant program will fulfill the Motor 
Carrier Safety Improvement Act of 1999 (MCSIA), Section 210(a) mandate 
for DOT to establish regulations specifying minimum requirements for 
applicant motor carriers seeking Federal interstate operating 
authority. This program is also required by Section 350 of the FY 2002 
DOT Appropriations Act as a precondition to opening the southern border 
to Mexican commercial vehicles.
    A joint Federal-State funding mechanism is proposed including $16.2 
million to support 32 FTE for Federal oversight and 67 contracted 
safety auditors, as well as expanded MCSAP grant funding of $17.0 
million for full year implementation of the program. Federal funds will 
provide infrastructure costs and training of both Federal and State 
personnel. The Federal-State split is needed as it is anticipated that 
up to 30 percent of the States will not be able to use MCSAP funding 
for this program due to incompatibility in State statutes and 
regulations. FMCSA plans to move Federal contract audit costs to State 
grants in the out years contingent upon the level of State 
participation in the program.
Administrative Infrastructure: $10,423
    To achieve the objectives of the President's Management Agenda and 
meet the additional responsibilities placed on FMCSA, it is now 
necessary to fully develop a comprehensive headquarters and field 
administrative infrastructure. In order to provide FMCSA with the 
necessary level of support, $10.4 million is required in FY 2004. 
Competitive sourcing principles and practices will be used to acquire 
these critical resources.
    When FMCSA was first established, the rapid rate at which new 
programmatic and management responsibilities would accrue to the agency 
could not have been predicted. These new activities, like the opening 
of the U.S.-Mexico border, exacted a toll on both FMCSA and FHWA's 
administrative capacities. Each agency was inundated with ever 
increasing workloads and heightened performance expectations. For FHWA, 
the reimbursement level provided by FMCSA for key administrative 
services was well below the level at which FHWA should have been 
compensated in relation to the work being performed. FMCSA was being 
supported by another agency for its work, a situation that cannot be 
sustained in the long term. Consequently, FMCSA is requesting the 
resources necessary to obtain and pay for administrative services 
commensurate with its workload and performance targets. Only with the 
resources needed to implement and sustain a comprehensive 
administrative infrastructure, will FMCSA be in a position to 
effectively manage for results.
Regulatory Development: $8,979
    Regulatory Development is the cornerstone of FMCSA's compliance and 
enforcement process. Without additional funds to promulgate all 
mandated regulations, program performance will be compromised. FMCSA 
requests $9 million in FY 2004 for new and expanded commercial motor 
vehicle safety regulatory development.
    The requested increase will support the development and 
implementation of new and amended FMCSRs, and two new priority 
initiatives: (1) a standing Medical Review Board to support the 
development and implementation of performance-based commercial driver 
qualification standards; and (2) a National Medical Examiner Registry 
and certification program to upgrade the quality of commercial driver 
medical examinations nationally. The funding will also provide the 
agency with sufficient resources to operate the Waivers, Exemptions, 
and Pilot Programs, which provide motor carriers and drivers with the 
opportunity to request relief from specific FMCSR requirements. These 
include the current vision exemption program, the planned diabetes 
exemption program, and requests for exemptions for loss or impairment 
of limbs.
Information Management: $4,157
    In FY 2004, the Information Management budget requested increase is 
$4.2 million. The requested increase reflects significant changes in 
two major areas--Information Technology Infrastructure and the Motor 
Carrier Management Information System (FMCSA's premier safety data 
system).
    In FY 2004, FMCSA will need to create an independent FMCSA 
information technology (IT) infrastructure. This request provides for 
procuring telecommunication lines for local and wide area network 
support for each field office, setting up firewalls and creating 
independent IT security systems, establishing a FMCSA e-mail system, 
systematic procurement of upgraded hardware and software, creating 
backup systems, and providing technical support for IT infrastructure.
    The second area that requires a significant increase in the IM 
budget request is improving the Motor Carrier Management Information 
System (MCMIS). The MCMIS files are populated with vital roadside 
inspection and traffic crash data by the States. In addition, MCMIS is 
the repository for FMCSA compliance review and enforcement case data 
and carrier registration data. Without the requested increase, the 
efficiency and effectiveness of any FMCSA program that uses safety data 
would be adversely affected. Both FMCSA enforcement staff and State 
enforcement personnel rely on MCMIS to provide timely, complete and 
accurate safety data. Without that data, enforcement staff will not be 
targeting the correct carriers at the roadside or their place of 
business. The increase will enable MCMIS to accommodate major new FMCSA 
efforts, including New Entrants and Unified Registration System, and to 
ensure that MCMIS data are properly secured.
HAZMAT Permitting: $2,000
    FMCSA is requesting $2 million/13 FTE in FY 2004 to implement a 
HAZMAT Permit program. 49 U.S.C. 5109 requires DOT to implement a 
HAZMAT Permitting Program for certain carriers of extremely hazardous 
materials. The program is intended to ensure that carriers transporting 
these materials have sufficient safety and security measures in place 
to accomplish that transportation without loss of life, injury, or 
property damage. These additional measures are necessary due to the 
possibility of catastrophic consequences if these materials are 
released, either accidentally or deliberately. Currently there are more 
than 2,700 interstate carriers that would be subject to the HAZMAT 
permitting requirements. FMCSA estimates an equal number of intrastate 
carriers will be subject to the permitting requirements.
Household Goods Enforcement: $1,008
    In FY 2004, FMCSA requests an additional $1 million/7 FTE to 
effectively fund and staff the household goods enforcement program. 
These funds will be used to primarily establish a highly visible 
enforcement program to reduce the number of consumer complaints filed 
against household goods carriers and brokers and increase consumer 
awareness to allow shippers to make better informed decisions before 
they move across state lines.
Outreach & Education Program: $1,000
    FMCSA requests $1 million in FY 2004 to continue and expand the 
``Safety is Good Business'' and ``Share the Road Safely'' programs. 
(Note: under TEA-21 $500K was provided annually under a NHTSA 
reimbursement, which will not continue in FY 2004.)
Conditional Carrier Reviews: $1,006
    FMCSA is requesting 8 additional Safety Investigators to further 
reduce the population of carriers currently operating with a less-than-
satisfactory safety rating. FMCSA conducts 1,460 re-reviews annually, 
but would have to conduct 2,840 re-reviews to include all less than 
satisfactory carriers. The requested 8 investigators would facilitate 
an additional 500 compliance reviews annually. This would bring the 
overall annual effort to 1,960 compliance reviews focused on carriers 
that have been previously identified as ``at-risk'' that continue to 
pose a safety risk on our highways.
Research & Technology Program: ($73)
    Inflation increases are not included for this program in FY 2004.
PRISM Operations Program: ($11)
    Inflation increases are not included for this program in FY 2004.
Safety/Consumer Hotlines: ($4)
    Inflation increases are not included for this program in FY 2004.
Adjustment for FY 2003 Enacted: $2,020
    Includes adjustments resulting from the enacted across-the-board 
rescission of 0.65 percent, Working Capital Fund rescission of $200 
thousand, FY 2003 pay raise levels, and other technical adjustments.

    Question 17. What is the justification for requesting $16.2 million 
in new funds for Federal staff to administer the new entrants program, 
but requiring the states to fund their portion--$17 million--out of 
their existing Motor Carrier Safety grant money?
    Answer. The President's FY 2004 budget for the Federal Motor 
Carrier Safety Administration includes funding for both the Federal new 
entrant program and a State new entrant program. For the Federal 
program, $16.2 million is requested to fund 32 program oversight staff 
and to hire contract staff to conduct new entrant audits where states 
are unable to fully conduct audits. The State program includes a $17 
million request for MCSAP grants to States for 100 percent funding of 
State staff to conduct new entrant audits. By including a separate new 
entrant State program in the FY 2004 budget, States will not be 
expected to use their existing MCSAP grant funds.
Household Goods Enforcement
    Question 18. The Administration's FY 2004 budget request for FMCSA 
requests funding for seven additional employees for household goods 
regulation enforcement and compliance. Given that FMCSA is receiving 
between 3,000 and 4,000 complaints annually, should more resources be 
devoted to this effort?
    Answer. The 7 FTE's requested in FMCSA's FY 2004 budget request for 
household goods enforcement and compliance is consistent with our 
reauthorization proposal. The 7 commercial investigators will begin the 
process of reducing household goods complaints by concentrating on the 
most egregious violators.
    FMCSA plans to expand the New Entrant Review process by including a 
commercial regulations HHG motor carrier component as a part of its New 
Entrant Safety review process. The New Entrant review program will 
utilize FMCSA's current field staff, which includes over 200 safety 
investigators. This program will act as an effective deterrent, in that 
all New Entrant household goods carriers will be contacted, within 18 
months after beginning operations, to ensure that they have HHG 
arbitration and other required programs in place.
    FMCSA's coordinated enforcement efforts with other Federal and 
State regulatory agencies have proven to be very effective means of 
leveraging scarce staff resources to pursue rogue household goods 
movers. FMCSA will, specifically, expand its referral and enforcement 
partnering efforts with the OIG, which will increase DOT's HHG industry 
oversight.
    SAFETEA's Section 4006 proposes to expand mandatory arbitration to 
include all household goods related disputes, including pricing, as 
well as authorizing State Attorneys General to enforce the Federal 
household goods statutes and regulations. FMCSA believes these actions 
will further allow increased policing of the interstate HHG industry 
without additional complaint handling and enforcement staff. This 
complies with Congress' intent that FMCSA focus more on industry 
oversight and enforcement actions against HHG carriers with a pattern 
of egregious actions and not recovery of consumer overcharges or 
settlement of individual consumer's complaints.
    Given these strategies, FMCSA believes we have the resources to 
adequately address the 3,000 to 4,000 HHG complaints received annually.
Global Warming
    Question 19. What does DOT hope to accomplish through the 
establishment of a $19 million energy and climate change program and 
how would DOT efforts be coordinated with the work of other Federal 
agencies?
    Answer. This legislation codifies a small, ongoing, collaborative 
DOT effort and guarantees that the research has stable, long-term 
funding. Long-term funding is necessary to support DOT's role in the 
President's Climate Change Research Initiative. Without guaranteed 
funding, we cannot fulfill the CCRI products we have committed to 
produce over the next 2-4 years that have been accepted through the 
interagency process led by Commerce and released to the public. 
Transportation accounts for more than one quarter of U.S. greenhouse 
gas (GHG) emissions and is the fastest growing sector, therefore we 
have a vital role in addressing climate variability and change 
research. Our collaboration through the Climate Change Research 
Initiative, under the U.S. Global Climate Change Research Program, 
ensures that our efforts complement the work of other Federal agencies 
and that the CCRI considers transportation concerns.
    Establishment of the $19 million energy and climate program within 
DOT will ensure that the Department can continue essential research 
into the relationship between transportation activity, climate change 
and energy to ensure that the transportation sector can address its 
role in climate change while continuing to provide for the Nation's 
mobility needs. Continued DOT research on climate variability and 
change will help determine future actions that are reasonable, 
targeted, and cost-effective.
    Research done by other agencies into transportation, energy and 
greenhouse gases does not fully capture the needs of the transportation 
community, including such important aspects as safety and 
accessibility. DOT's continued research will complement, not duplicate, 
the engine and fuel technology research efforts of EPA, DOE, and other 
research institutions. DOT's understanding of transportation behavior 
and systems management, such as congestion and value pricing, 
transportation systems management, and travel demand management, will 
be vital in developing the market-based incentives that are emphasized 
in the President's program. DOT's research efforts into energy 
efficiency and reducing greenhouse gases will continue to be 
coordinated with those of other Federal agencies under the CCRI.
    DOT is also the only agency conducting research into the potential 
impacts of climate change and variability on transportation and 
transportation infrastructure. Long lead times in the construction of 
transportation infrastructure require advance planning and 
consideration of potential climate change impacts. DOT's research uses 
the existing expertise developed by agencies such as NOAA and NASA to 
improve transportation decisionmaking.
Diabetes-CDL Exemption Program
    Question 20. FMCSA has issued a proposed rule on the diabetes-CDL 
exemption program which includes a requirement that in order to even 
apply for the program, all candidates must have three years of 
commercial driving experience while using insulin. In effect, the 
three-year rule makes it impossible for almost anyone to qualify for 
the program. For example, Arizona only has 15 drivers in its program. 
Why does FMCSA support the three-year rule when FMCSA's own Expert 
Medical Panel opposes it, and its inclusion would mean that very few, 
if any, drivers will be able to participate in the diabetes-CDL 
exemption program?
    Answer. This is a complex matter. It is incumbent on the agency to 
carefully weigh the potential safety consequences against the desire of 
individuals to operate CMVs. A careful and conservative approach is 
essential. We intend to issue a final decision on our diabetes program 
this summer.
    The 3-year requirement would be the first step in moving from an 
absolute prohibition toward a more flexible standard. The 3-year 
requirement is needed to ensure effective safety program oversight; 
thorough screening of exemptions applicants and periodic monitoring of 
their performance is the best way to ensure that allowing exemptions 
from the diabetes standard is consistent with a high level of safety. 
Any exemption program requires that we determine beforehand, that the 
level of safety will be equivalent to, or greater than, the level 
absent the exemption. As such:

  <bullet> The 3-year requirement is supported by the previous work the 
        agency performed under its diabetes waiver program in the mid-
        1990s. Drivers in that program, who had 3 years of experience 
        driving while using insulin, had accident rates lower than the 
        National rate.

  <bullet> The 3-year requirement provides sufficient time to expose 
        anomalies in the driving record and enhance safety 
        predictability, while allowing the driver to develop a routine 
        for managing his or her condition and to demonstrate these 
        adaptive skills.

  <bullet> The agency will use the 3-year time frame to determine past 
        safety performance as a predictor of future safety performance.

    FMCSA believes that its medical advisory panel's recommendation 
that persons could be qualified to drive a CMV after a 1- or 2-month 
period of adjustment to insulin use is inappropriate for CMV drivers, 
given the complex demands of operating a large vehicle.
    Diabetes is a chronic disease requiring constant control and 
monitoring. CMV drivers, however, are frequently required to work long 
hours and travel significant distances from home, often requiring an 
overnight stay away from home. Because of economic pressures to arrive 
at a delivery site on schedule, drivers may often have difficulty 
maintaining a regular diet, exercise, and blood sugar monitoring 
patterns necessary to properly manage their diabetes. Failure to 
properly manage diabetes significantly increases the likelihood of an 
adverse event such as loss of consciousness while driving due to 
hypoglycemia (low levels of sugar in the blood).
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                         Hon. Norman Y. Mineta
Rail
    Question 1. SAFETEA would authorize almost $250 billion over six 
years for highway and transit programs, including $25 million for high-
speed rail. Administration officials have promised to provide a plan 
for Amtrak as well, but so far, nothing has been forthcoming. When will 
the Administration provide a long-term authorization plan for Amtrak?
    Answer. The legislative proposal is in final Administration 
clearance. I hope to be able to transmit it to Congress in the near 
future.

    Question 2. How will authorization for Amtrak fit with the general 
transportation authorization in SAFETEA? When we get done authorizing 
highways and cutting taxes, will there be enough money left over to 
provide real funding for passenger rail, or will we continue to just 
talk about the wonders of passenger rail while we leave Amtrak to limp 
along?
    Answer. Intercity passenger rail has always been addressed in a 
stand-alone legislation and not with programs funded primarily from the 
Highway Trust Fund. The Administration proposes to continue that 
approach. The ability to fund all meritorious needs is a challenge that 
faces all forms of transportation. That is the reason the 
Administration believes it is essential that intercity passenger rail 
become a form of transportation driven by its fundamental economics. I 
believe that with the reforms the Administration proposes the Congress 
and Administration, in partnership with the States, can find the funds 
necessary to result in a much improved intercity passenger rail system 
that serves as an important part of our national transportation system.

    Question 3. For decades now, we have invested billions of dollars 
building a first-class highway system and a first-class aviation 
infrastructure. We invest billions in transit systems, bridges, 
airports, tunnels, and almost any manner of transporting our citizens 
and their goods. It is plain that long-term, heavy government financial 
support of transportation is not an alien concept, and Americans are 
smart enough to realize that our transportation system needs and 
deserves significant public investment. Why then does the 
Administration continue to shove aside public support for passenger 
rail when it is a necessary component of our transportation system?
    Answer. The financial resources available for transportation are 
not boundless. The public uses highways, aviation and transit to a far 
more significant extent than they use intercity rail and contributes to 
the development and maintenance of these forms of transportation 
through user fees. Both these factors can help explain the relative 
level of Federal financial assistance for highways, aviation and 
transit when compared to intercity passenger rail. It should be noted 
that despite the significant challenges facing the Federal budget, this 
year the Administration has sought a greater level of financial support 
for intercity passenger rail than was sought during any of the eight 
years preceding this Administration.

    Question 4. There are 28 states along the Administration's 10 
designated high-speed corridors. DOT likes to boast that it supports 
high-speed rail and is investing in its development. The 
Administration's bill authorizes $25 million per year for high-speed 
rail. That would work out to be just $2.5 million per corridor, or less 
that $1 million per state along those corridors. South Carolina has 
requested $10 [million] for statewide high-speed rail. Although the 
funds will not necessarily be divided in equal parts among the 28 
states, it would nevertheless be unreasonable to assume the South 
Carolina would receive more than a fraction of the money it says it 
will need to develop high speed rail there. What does the 
Administration expect high-speed rail developers to accomplish with 
such little funding?
    Answer. The Administration believes that all intercity passenger 
rail, including high speed rail, should be approached as part of one 
decisionmaking process. Specifically, the States should incorporate the 
planning for passenger rail into their comprehensive Statewide and 
metropolitan area planning processes and make the fundamental decisions 
on which projects or services are needed. The States, as they do for 
other transportation programs (e.g., highways, and transit), will 
assemble the resources needed to implement those plans including the 
capital investment strategy, the operator, and the funding sources. The 
Federal Government will participate in the funding the necessary 
planning and in the capital investment. The program referenced in the 
question is the planning component of this new Federal role. The 
Administration expects that this level of funding will be of 
significant benefit in helping States make sound decisions on which 
intercity passenger rail, including high-speed rail, initiatives 
warrant the State's attention and investment.
Highway Safety
    Question 5. I am a little disappointed in the Administration's 
proposal to allow States to flex 50 percent of money allocated for 
behavior traffic improvements to road construction. That means that 
States could use half of the funds allotted to things like seat belt 
enforcement and drunk driving prevention to build more roads. The bill 
would allow a state to move 50 percent of road construction funds to 
behavioral improvements, but studies conducted by GAO show that rarely 
happens. States tend to want to use as much as they can to build roads, 
even though it is a proven fact that seat belt enforcement saves many, 
many lives each and every year. Is it the Administration's intent to 
grow the highway infrastructure at the expense of highway safety 
programs?
    Answer. The Administration has built flexibility into SAFETEA to 
allow each State to utilize funding for programs it deems most 
critical, based on a data-driven strategic highway safety planning 
process. This would be a collaborative process, including the 
Governor's Highway Safety Representative, the State Department of 
Transportation and other stakeholders. The U.S. Department of 
Transportation would approve the process.
    Under TEA-21, States have demonstrated that funding flexibility has 
not short-changed highway safety behavioral programs. Data in the 
recent GAO Report (03-474) indicated only 31 percent of transfer funds 
were used for behavioral programs, during 2001 and 2002. However, in FY 
1998 through 2002, States used $405.9 of $552.9 million, or 73 percent, 
of flexible incentive grant funding, from Sections 157 and 163, for 
behavioral safety programs.
Port Growth & Infrastructure
    Question 6. Mr. Secretary, I would like to ask you a couple of 
questions about your proposal to dedicate a portion of highway funds 
for use on intermodal connectors. While I applaud you on recognizing 
the need to set aside a portion of funds to address the infrastructure 
needs required for cargo or freight movements, in Charleston, South 
Carolina we have been wrestling with how, or if, we should expand our 
port. The port has been growing at close to a 7 percent clip over the 
past ten years or so, and it has been a boon to many of the industries 
in the entire Southeast region. However, the problem in expanding the 
port, hasn't been that there isn't enough business, we in fact are the 
fourth largest container port in the U.S. The problem is we have too 
many trucks operating in Charleston in the wrong places, and congestion 
is the reason many in the area don't support port expansion. Your bill 
provides dedicated funding only to build more roads in each state, why 
don't we let the states decide if they want to mitigate the congestion 
using rail and maritime, and help them do that?
    Answer. The funds collected by the government from the users of the 
highway system are generally used to support State programs to enhance 
the highway and transit infrastructure. For the most part, this Highway 
Account of the Highway Trust fund is to be used by States and 
metropolitan areas for major highways. Even for these uses, however, 
there has been a belief by many in the freight community that States 
and local governments give too little priority to the needs of freight 
movement.
    For this reason, we included Section 1205, Freight Transportation 
Gateways program and Freight Intermodal Connections program. This 
program is intended to meet the specific problems you raise by 
requiring that States maintain their intermodal connectors including 
those to rail and maritime, at or above the requirements of the NHS. It 
will facilitate and support intermodal freight transportation 
initiatives at the State and local levels in order to improve freight 
transportation gateways and mitigate the impact of congestion leading 
in and out of these gateways.
    It would require States to spend their National Highway System 
funds on intermodal connectors based on the proportions of freight/
STRAHNET connector miles in a State compared to the total NHS mileage 
in the State, or 2 percent of NHS funds apportioned for the fiscal 
year, whichever is greater. A State may be exempted from the required 
set aside by showing that connectors in the State are in good condition 
and providing an adequate level of service. Finally, it would require 
each State to designate a freight transportation coordinator to help 
ensure that States are responding appropriately to the needs of the 
freight community. In addition, eligibility for publicly owned 
intermodal freight facilities is included in the Surface Transportation 
Program (STP), and the TIFIA program now includes eligibility for both 
publicly and privately owned rail facilities to help mitigate 
congestion at our major ports, such as the Port of Charleston.
CAFE
    Question 7. NHTSA issued its final rule to increase CAFE for the 
light truck fleet by 1.5 mpg by 2007. While I appreciate the effort of 
NHTSA waking up and trying to do something to improve the fuel economy 
numbers that are dropping like a stone, the result leaves a lot to be 
desired. Are there plans for NHTSA to take up a rulemaking to increase 
the CAFE for passenger cars?
    Answer. Secretary Mineta led the Administration's effort to improve 
fuel economy, urging Congress in 2001 to lift a 6-year prohibition 
against NHTSA revising CAFE standards. On April 3, 2003, NHTSA 
published a final CAFE rule for model years 2005-2007. The rule marks 
the greatest increase in fuel economy standards in 20 years, and the 
first change since the mid-1990s. The 1.5 mpg increase (from 20.7 mpg 
to 22.2 mpg) during this 3-year period more than doubles the increase 
in the light truck CAFE standard that occurred between model years 1986 
and 1996, when it increased from 20.0 mpg to 20.7 mpg.
    No decision on when to undertake rulemaking on fuel economy 
standards for passenger cars has been made yet. As recommended by the 
National Academy of Sciences, NHTSA is presently examining possible 
reforms to the CAFE system. Later this year, the agency will publish an 
Advance Notice of Proposed Rulemaking that will outline specific 
reforms the agency is considering.

    Question 8. In your opinion, does NHTSA's current authority allow 
you to do work in that area or will you need some additional authority 
in reauthorization?
    Answer. Congress set the MY 1985 passenger car standard at 27.5 mpg 
and provided for the continued application of that standard, but gave 
NHTSA the authority to set higher or lower standards. The agency 
currently has the authority to revise the fuel economy standard for 
passenger cars as long as it does so consistent with the statutory 
criteria prescribed for establishing ``maximum feasible'' fuel economy 
standards.

    Question 9. I remember looking over some budget numbers for NHTSA 
last year, and I believe that there was only $60,000 in the budget for 
staff. I think you all stashed some poor soul in a closet with bad 
lighting and called that the CAFE department. Now, the Administration 
is asking for a whopping $250,000 for CAFE. That money would not cover 
an automaker lobbyist's bar tab for six months, much less fund a part 
of an agency that is supposed to undertake independent reviews of data 
to make decisions on fuel economy. Do you think that $250,000 is 
enough?
    Answer. First, we should clarify that the current budget (FY 2003) 
for CAFE is $1 million. For FY 2004, we requested an additional 
$267,000 for a total budget of $1.267 million. NHTSA recently set new 
fuel economy standards for light trucks that were based on sound 
science and through the rulemaking process. The new standards will 
ensure improvements in fuel economy without negative impacts on safety 
and the economy. This demonstrates that NHTSA has both the expertise 
and the funding necessary to develop CAFE standards and policy as 
guided by the statutory criteria established by Congress.

    Question 10. What was the CAFE budget when you all actually did 
CAFE in the early 1980s?
    Answer. In the late 1970s when the CAFE regulation was first 
issued, the agency had an annual budget of approximately $8 million. In 
the early 1980s, funding was drastically cut to a budget of less that 
$0.5 million. As mentioned above, NHTSA's recent setting of new light 
truck standards demonstrates that it has sufficient funding for the 
CAFE program.
TREAD Act
    Question 11. I have concerns about the development of the early 
warning program. It is my understanding that filed lawsuits will not be 
included in the reporting system, but these suits are what brought the 
Ford-Firestone situation to light in the first place. Since these 
filings are presumptively public documents, and a number of lawsuits 
against a particular tire maker would definitely aid in detecting a 
trend, why are they not being included?
    Answer. Lawsuits are considered in the rulemaking and are included 
within the definition of ``Claims.'' According to 49 CFR Part 579.4, a 
``Claim'' is defined as including, among other things, ``a demand in 
the absence of a lawsuit, a complaint initiating a lawsuit, an 
assertion or notice of litigation, a settlement, covenant not to sue or 
release of liability in the absence of a written demand, and a 
subrogation request. . . .''

    Question 12. Why has NHTSA reopened its confidentiality rules in 
regards to the early warning system? If the intent is to restrict 
disclosure of information from the early warning program, that is a 
subversion of Congressional intent. It is the public that is injured 
and killed by defective products and the whole premise of the early 
warning notice is to put the public on notice, yet NHTSA wants to hide 
information under this prospective rulemaking? Please explain the 
rationale of making information from a WARNING system private.
    Answer. NHTSA has not reopened its confidentiality rules with 
regard to early warning data. To the contrary, NHTSA is in the process 
of considering, through notice and comment rulemaking, the appropriate 
application of those rules to the early warning data. NHTSA sought 
public comment on the appropriate disclosure or nondisclosure of the 
data to help guide this analysis. NHTSA anticipates issuing a final 
rule addressing this issue shortly.
SUV Safety
    Question 13. The working group headed up by the Insurance Institute 
for Highway Safety and the Alliance will be providing recommendations 
for voluntary standards to improve rollover and other SUV safety 
issues. Has this group actually included real input from safety groups 
like Public Citizen and Consumer's Union? At last report, they were 
excluded. I am very concerned that your reliance on this working group 
may result in tepid standards that still put people in dangerous 
trucks. Update me on the status of the group's work, who is involved 
and at the table, and NHTSA's course of action if the recommendations 
are not up to par.
    Answer. In 2002, NHTSA Administrator Runge identified rollover and 
vehicle compatibility as two of his highest safety priorities. NHTSA 
formed Integrated Project Teams (IPT) specifically to examine these two 
issues and make recommendations as to how we could most effectively 
improve safety in these areas. We plan to share the IPT Reports on 
Rollover and Compatibility with the public very soon via a Federal 
Register notice.
    Subsequent to NHTSA's formation of these teams, the vehicle 
manufacturers asked the Insurance Institute for Highway Safety (IIHS) 
to chair groups of experts to make suggestions for ways the industry 
could voluntarily improve safety in the areas of compatibility and 
rollover. We welcome the automotive industry's acknowledgement that 
rollover and compatibility are significant safety problems and their 
commitment to develop what they believe are effective approaches to 
addressing these problems. NHTSA was asked to send observers to both 
the industry rollover and compatibility working groups. We declined the 
opportunity to participate in these working groups because we believe 
the government and industry will achieve the most effective solutions 
if we proceed with parallel efforts. Thus, the Department has had no 
involvement in the design and implementation of the working groups, and 
has no knowledge of participation and input from safety or other 
groups.
    Our only meeting with IIHS and the Alliance of Automobile 
Manufacturers (Alliance) regarding these working groups occurred on 
Wednesday, May 28, 2003. At that meeting, representatives of IIHS and 
the Alliance provided an update of the compatibility working group's 
progress. We were told that these working groups expect to announce 
their results later this year. I have submitted for the record a copy 
of the sheet we were given, and this sheet is also available in our 
public docket for our Compatibility IPT. We told IIHS and the Alliance 
that we expect to issue our Compatibility IPT very soon and encouraged 
them to comment on it. While the Department looks forward to hearing 
about the industry working groups' progress, our research work to 
improve SUV safety is continuing independently.
    See attachment for brief summary of the Integrated Project Team 
Reports on Vehicle Compatibility and Rollover.
FMCSA's Reauthorization Proposal
    Question 14. The limitation for administrative expenses for FMCSA 
(their Federal operations) is significantly increased in the first year 
of reauthorization (2004) by approximately 65 percent, with another 12 
percent increase over the life of the bill. Then you look at the Motor 
Carrier Safety Assistance Program Grants (MCSAP), the core grant 
program for the states to undertake their roadside truck and bus 
inspection and other enforcement programs, it remains the same at 
$164,500,000 in the first year of reauthorization with only a 10 
percent increase over the life of the bill. (Based on a needs 
assessment from its state enforcement members, the Commercial Vehicle 
Safety Alliance is asking for a 5 percent annual increase in each year 
of the life of the bill.)
    Given the fiscal crisis in most states today, why is there such an 
increase for the Federal bureaucracy at the same time that the state 
grant program is only marginally increased? Shouldn't there be a better 
balance in the funding of the Federal and state motor carrier safety 
programs? Aren't the real safety enforcement efforts carried out by the 
states and don't they deserve more of an increase?
    Answer. The majority of State safety enforcement efforts are 
focused on roadside inspections that include both driver and vehicle. 
Unquestionably, this is a major element in the overall commercial 
vehicle safety program. The FMCSA budget request to fund such activity 
falls under the $164.6 million Motor Carrier Safety Improvement Program 
(MCSAP). MCSAP provides funding for States to hire, train, and equip 
roadside inspectors.
    While MCSAP is a significant component, there must be a strong 
Federal safety program to review carrier operations, conduct 
enforcement on non-complying carriers, and provide overall policy and 
procedural direction on programs such as the New Entrant Program, 
Commercial Driver's Licensing, and others. A strong Federal presence 
provides leadership for national safety programs and promotes 
uniformity of safety programs and enforcement for interstate commerce.
    The Intermodal Surface Transportation Efficiency Act strengthened 
the State's role by significantly increasing MCSAP funding. This 
enhanced State role has been brought forward into the FY 2004 budget 
and SAFETEA. FMCSA believes its commercial safety program to be 
appropriately balanced; with opportunities such as safety program 
reauthorization, any changes to that balance between State and Federal 
programs can be met.
                                 ______
                                 
  Response to Written Questions submitted by Hon. Daniel K. Inouye to 
                         Hon. Norman Y. Mineta
    Question 1. The Administration's proposed legislation provides 
funding for intermodal passenger facilities as well as freight 
transportation gateways. I am very interested in these new programs, 
and would like to see how they might facilitate the flow of passengers 
and freight at seaports.
    I understand that the intermodal passenger facilities program is 
focused on intercity bus intermodal facilities capital grants and lists 
several modes of transportation as eligible expenses--however it is 
critical that seaports and cruise ship passenger facilities be included 
as an eligible expense. The Administration's summary of this program 
indicates that seaports are eligible, however the language of the bill 
does not include seaports as an eligible facility for funding. How will 
the Department of Transportation ensure that passenger ship facilities 
are eligible for funding under this program and are provided funding 
for security measures that are needed at these seaports?
    Answer. The Intermodal Passenger Facilities Program reinforces the 
key role of seaports within the Nation's system of intermodal 
transportation. Specifically, the Intermodal Passenger Facilities 
Program would provide grants for that portion of an intermodal 
passenger facility that is physically and functionally related to 
intercity bus service. It would also assure intercity public 
transportation access to seaports, strengthening the links between 
cruise ships and ferries and the land-based transportation networks 
that support them. And while security measures at passenger ship 
facilities are not eligible for funding under this Program, such 
measures are eligible for grants available through the Maritime 
Transportation Security Act.
    The Administration's SAFETEA proposal recognizes the importance of 
passenger ferries, providing Federal capital funding for publicly owned 
and operated ferries through the Federal Transit Administration's 
Urbanized Area Formula Program, Non-Urbanized Area Formula Program, and 
the new fixed guideway and fixed guideway modernization categories 
under the section 5309 Capital Investments Grant Program. Such ferries 
may also be eligible for Federal capital funding through the Federal 
Highway Administration's Transportation Enhancement Program, Surface 
Transportation Program (STP), and Congestion Mitigation and Air Quality 
Program (CMAQ). Finally, passenger ferries may be eligible for funding 
through SAFETEA's 2 percent set-aside of National Highway System (NHS) 
funds for projects on NHS routes connecting to intermodal freight 
terminals.

    Question 2. What methodology was used by the Department of 
Transportation to determine that intercity buses are the backbone of an 
intermodal passenger facility?
    Answer. Given the overwhelming importance of highway and road 
networks within the national transportation system, intercity buses 
play a vital role in facilitating intermodal transportation. Throughout 
the country, in every State and in most travel markets, the private bus 
industry enhances the Nation's mobility by providing one or more of its 
broad array of services: in regular route service between cities; in 
commuter and shuttle markets; as an intermodal connector to air, 
intercity rail passenger, and transit operations; and in charter, tour, 
and sightseeing markets. Additionally, in much of rural America buses 
serve as the only available public transportation option.
    DOT's internal analysis demonstrated the breadth and depth of the 
private bus industry. The industry's dozens of large carriers and more 
than 3,000 small and mid-size carriers operate a total fleet of 35,000 
vehicles. Its services provide direct connections at more than 200 
intermodal terminals. It carries some 40 million passengers per year in 
the intercity bus market alone (compared with Amtrak's 24 million rail 
passengers), and it carries more than 500 million passengers annually 
across its shuttle, commuter, charter, tour, and other markets. In the 
process, it employs more than 150,000 people and generates $5 billion 
per year in carrier revenues. Intercity buses are essential to 
America's intermodal mobility. Consequently, the Department of 
Transportation strongly supports the Intermodal Passenger Facilities 
Program's provision of funding for intercity bus facilities.

    Question 3. Freight transportation gateways and freight Intermodal 
connections are extremely important to the economy of the State of 
Hawaii as well as coastal communities throughout the United States. 
They facilitate the transport of intermodal shipping containers from 
one mode of transportation to another. This program enables a State to 
invest in publicly owned intermodal freight transportation projects.
    The Administration's language indicates that States and localities 
would be encouraged to adopt innovative financing strategies for 
freight gateway improvements, including new user fees and private 
sector investment. Does the Department of Transportation support new 
user fees for intermodal container transporters to pay for these 
facilities and security?
    Answer. The Administration recognizes both the importance of 
freight gateway improvements and the often substantial funding levels 
that these improvements require. Given increasing pressures on a 
limited pool of Federal highway funding, the Department of 
Transportation supports the use of a wide variety of innovative 
financing strategies, including user fees, for freight gateway 
improvements. The Administration also advocates local solutions to 
local problems whenever possible. Accordingly, the Department of 
Transportation supports user fees for container transporters or 
handlers, providing that such fees are locally developed in consensus 
with the freight community and that the fees expedite the flow of 
commerce. Public port authorities may--and often do--incorporate such 
fees into the tariff rates that they assess port users. In addition to 
the Department's support for user fees, it should be noted that other 
aspects of SAFETEA address intermodal connectivity, including the 
dedication of a 2 percent set-aside of National Highway System (NHS) 
funds for projects on NHS routes connecting to intermodal freight 
terminals.

    Question 4. Do you, Mr. Secretary, think that this restriction of 
funds may discourage commercial investment in the development and 
expansion of freight intermodal facilities and connectors?
    Answer. The Administration does not think that the encouragement of 
private financing will restrict the building or improvement of 
intermodal facilities. By encouraging States and localities to consider 
alternative financing mechanisms, the Administration hopes to expand, 
rather than restrict, the total amount of funding available for the 
development and expansion of intermodal facilities and connectors. 
Additionally, in SAFETEA the Administration has proposed a number of 
new financing tools to better support infrastructure investments, 
including making highway and freight transfer facilities eligible for 
private activity bond financing for the first time and broadening TEA-
21's successful ``TIFIA'' credit program. The Department views this 
innovative financing approach to be a viable stimulus for private-
sector investment in freight activities.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Breaux to 
                         Hon. Norman Y. Mineta
CDL Medical Certification
    Question 1. In the Motor Carrier Safety Improvement Act of 1999, 
Congress directed the Federal Motor Carrier Safety Administration 
(FMCSA) to initiate a rulemaking to provide for a Federal medical 
qualification certificate to be made part of commercial drivers' 
licensing process. In a letter you sent me on September 24, 2002, you 
said that the Department would publish the proposed rule in March 2003. 
To date, this rulemaking has not yet been issued.
    The Department has not been able to even propose regulations 
integrating medical qualification certification with the commercial 
drivers' licensing process in over three years. Yet the Mexican 
government already has this combined program in place. When will the 
Department issue the proposed rule to begin the process of establishing 
a procedure combining medical qualification with CDL qualification?
    Answer. A notice of proposed rulemaking will be published by 
December.

    Question 2. Will this rulemaking be issued as planned, or is the 
Administration waiting to see what action Congress takes on SAFETEA?
    Answer. Yes, the notice of proposed rulemaking will be published by 
December as planned.

    Question 3. According to your letter, the proposed rule combining 
the medical certification process with the CDL issuance and renewal 
processes would ``reduce the incidence of medical examiners improperly 
certifying drivers who are not medically qualified to operate trucks 
and buses in interstate commerce.'' How will the combining of the 
certification processes change the behavior of medical examiners?
    Answer. The notice of proposed rulemaking combining the medical 
certification process with the CDL process would include provisions for 
a national registry of medical examiners that have received training to 
perform such examinations. This would ensure that medical examiners are 
knowledgeable of driver qualification standards and guidelines and 
understand the demands involved in driving a commercial vehicle.
    The medical registry will permit monitoring for the current 
licensing status of medical examiners on the registry, and can be used 
to disseminate information to practitioners regarding medical standards 
and guidelines relevant to the physical examination of commercial 
drivers. A certification process that ensures all medical examiners are 
qualified to perform physical examinations for commercial drivers would 
reduce the incidence of medical examiners improperly certifying drivers 
who are not qualified.
CDL Disqualifications
    Question 4. Your letter stated that as of September 30, 2002, 
commercial motor vehicle drivers convicted of traffic violations while 
operating a car, which resulted in the cancellation, suspension or 
revocation of the drivers' license, are disqualified from operating a 
commercial motor vehicle. Also disqualified are individuals convicted 
of committing drug- or alcohol-related offenses while driving a car. 
That restriction has been in force now for almost eight months. How 
many CDL holders have been disqualified as a result of this 
prohibition?
    Answer. To date, none. The States are currently developing and 
passing their own legislation to implement and enforce the Federal 
requirements. The States have until September 30, 2005, to comply with 
the new requirements. FMCSA is also working with the American 
Association of Motor Vehicle Administrators (AAMVA) and the States to 
make the needed revisions to the Commercial Driver's License 
Information System to accommodate the transmission and recording of 
convictions for these new offenses in a noncommercial vehicle by a CDL 
holder.

    Question 5. What steps has FMCSA taken to ensure that States are 
following this new rule by revoking the CDLs of disqualified 
individuals or by reporting the individuals to FMCSA?
    Answer. As mentioned above, the States are currently developing and 
passing legislation to implement and enforce the Federal requirements. 
FMCSA is providing technical assistance when requested in developing 
and reviewing draft State legislation. FMCSA also has a contract with 
the National Conference of State Legislatures to track each State's 
legislation. Once the States start enforcing the new requirements, 
FMCSA will include these standards in our CDL State compliance review 
and oversight process to make sure they are being enforced according to 
the Federal requirements.
    Your letter stated that a driver who causes a fatality through 
negligent or criminal operation of a commercial vehicle while driving 
with a canceled, suspended, or revoked CDL is disqualified from 
operating a commercial vehicle.

    Question 6. If a driver has a cancelled or revoked CDL, isn't the 
driver already disqualified?
    Answer. Yes. However, a conviction for this new major offense of 
driving a CMV while the driver's CDL is revoked, suspended or cancelled 
or the driver is disqualified from operating a CMV, will add additional 
time to the previous disqualification period.

    Question 7. Shouldn't negligent or criminal operation of a 
commercial vehicle be grounds for disqualification, whether or not the 
behavior causes a fatality?
    Answer. That is a question for Congress. The offense of ``causing a 
fatality through the negligent operation of a commercial motor vehicle 
. . .'' in 49 CFR 383.51(b)(8) implements the requirement in section 
20l(a) of the Motor Carrier Safety Improvement Act of 1999 that states: 
``convicted of causing a fatality through negligent or criminal 
operation of a commercial motor vehicle.''

    Question 8. Is operating a commercial vehicle with a cancelled, 
suspended or revoked CDL a prima facie case of negligent or criminal 
operation of a commercial vehicle?
    Answer. There are two separate major offenses that were established 
by section 201(a) of the Motor Carrier Safety Improvement Act of 1999. 
The first is ``driving a commercial motor vehicle when the individual's 
commercial driver's license is revoked, suspended or cancelled'' and 
the other is ``causing a fatality through negligent or criminal 
operation of a commercial motor vehicle.'' Some States may consider 
driving after revocation, suspension, or cancellation of a license to 
be prima facie evidence of negligence, but driving without a license 
would not necessarily cause a fatality.
CDL Medical Examiners
    Question 9. Under the Administration's proposed bill, SAFETEA, 
FMCSA would initiate another rulemaking to set standards for medical 
examiners to meet in order to be qualified to examine commercially 
licensed drivers. FMCSA would also establish a medical review board to 
provide advice to FMCSA and guidelines to medical examiners to use in 
examining COL applicants.
    It seems to me that we need some threshold health standards that 
commercial vehicle drivers must meet to qualify for a CDL. Yet, the 
Administration is proposing to establish standards for medical 
examiners to meet to be qualified to examine commercial drivers. How 
will the FMCSA determine that the medical examiners are qualified? Will 
the examiners be tested by FMCSA?
    Answer. FMCSA has adopted 13 physical qualification standards for 
commercial drivers that are directly related to the driving function. 
Commercial drivers in interstate commerce are required to meet these 
standards and receive biennial physical examinations. Currently, 
medical examiners, who could perform the physical examinations, are not 
required to have specific training and do not need to demonstrate any 
special or unique competence to commercial operations to medically 
certify commercial drivers.
    FMCSA would develop a certification program based on Federal 
medical regulations and guidelines. The certification program content 
would be established by rulemaking. A medical professional would have 
to participate in training and pass a test in order to be included in a 
national database of qualified medical examiners. However, decisions on 
processes and procedures for establishing a national registry and 
certification program for medical examiners are only speculative until 
a rulemaking is completed.

    Question 10. Qualified medical examiners will then have guidelines 
to follow in qualifying (or not) a prospective commercial vehicle 
driver. Guidelines are not mandatory, so it would follow that the 
medical examiners will have discretion in deciding who is qualified and 
who is not. Will this not lead to inconsistency among doctors? How will 
FMCSA ensure that the guidelines are uniformly applied?
    Answer. Detailed best practices guidance is issued periodically to 
aid medical examiners in understanding the regulations. Medical 
examiners routinely request this guidance to assist them in making an 
evaluation of a commercial driver. The national registry of medical 
examiners will provide FMCSA with a mechanism for disseminating this 
information to all medical examiners. Making the same information 
available in a timely manner to all medical examiners will facilitate, 
if not ensure, consistency among examiners.

    Question 11. How will CDL holders and applicants know which medical 
examiners are qualified under the FMCSA program?
    Answer. CDL holders would be required to obtain their biennial 
physical examinations from a certified medical examiner on the national 
registry. Decisions on processes and procedures for establishing a 
national registry and certification program for medical examiners would 
be made when the agency completes a rulemaking.

    Question 12. Will the examiners have to be re-qualified, or will 
they obtain a lifetime qualification to perform the medical exams on 
CDL holders and applicants? Will the regulations include standards 
under which qualified medical examiners become disqualified? If so, 
will there be an appeals process for medical examiners that have been 
disqualified?
    Answer. A process for certifying medical examiners would include 
procedures for both initial and refresher training sessions. A program 
for a national database of qualified medical examiners would have 
procedures in place to address the removal of medical examiners from 
the registry and an appeal process.

    Question 13. Your letter stated that FMCSA has revised the 
certification form [medical examination report form] used by medical 
examiners to include more medical advisory guidance to assist examiners 
in making physical qualification determinations in order to ``ensure 
that medical examiners are more knowledgeable of the physical 
qualifications standards.'' How will this change ensure that medical 
examiners use the guidance in examining CDL holders and applicants?
    Answer. The revised medical examination report form, to the extent 
possible, includes all relevant information necessary to conduct the 
physical examination and certification of commercial drivers. It 
contains the Federal standards, instructions to the medical examiner, 
and medical advisory guidelines to assist the medical examiner in 
determining the medical qualification status of commercial drivers. The 
examination form directs medical examiners to FMCSA Internet reports on 
specific medical disorders and includes an FMCSA telephone contact 
number for questions. Easy access to the standards and medical advisory 
guidance found on the medical examination report form will facilitate, 
if not ensure, the use of this information.
Diabetic Drivers
    Question 14. FMCSA has issued a proposed rule that requires 
diabetic drivers to have three years of commercial driving experience 
while using insulin in order to qualify for a diabetes exemption in 
obtaining a CDL. This scheme would require a diabetic driver to drive a 
commercial vehicle illegally for three years in order to qualify for 
the exemption. In effect, the three-year rule makes it impossible for 
almost anyone with diabetes to qualify for the program and a CDL. Why 
does DOT support the three-year rule when FMCSA's own Expert Medical 
Panel opposes it, and its inclusion means that very few, if any, of my 
constituents will be able to participate in the diabetes-CDL exemption 
program?
    Answer. This is a complex matter. It is incumbent on the agency to 
carefully weigh the potential safety consequences against the desire of 
individuals to operate CMVs. A careful and conservative approach is 
essential. We intend to issue a final decision on our diabetes program 
this summer.
    The 3-year requirement would be the first step in moving from an 
absolute prohibition toward a more flexible standard. The 3-year 
requirement is needed to ensure effective safety program oversight; 
thorough screening of exemptions applicants and periodic monitoring of 
their performance is the best way to ensure that allowing exemptions 
from the diabetes standard is consistent with a high level of safety. 
Any exemption program requires that we determine beforehand that the 
level of safety will be equivalent to, or greater than, the level 
absent the exemption. As such:

  <bullet> The 3-year requirement is supported by the previous work the 
        agency performed under its diabetes waiver program in the mid-
        1990s. Drivers in that program, who had 3 years of experience 
        driving while using insulin, had accident rates lower than the 
        national rate.

  <bullet> The 3-year requirement provides sufficient time to expose 
        anomalies in the driving record and enhance safety 
        predictability, while allowing the driver to develop a routine 
        for managing his or her condition and to demonstrate these 
        adaptive skills.

  <bullet> The agency will use the 3-year time frame to determine past 
        safety performance as a predictor of future safety performance.

    FMCSA believes that its medical advisory panel's recommendation 
that persons could be qualified to drive a CMV after a 1- or 2-month 
period of adjustment to insulin use is inappropriate for CMV drivers, 
given the complex demands of operating a large vehicle.
    Diabetes is a chronic disease requiring constant control and 
monitoring. CMV drivers, however, are frequently required to work long 
hours and travel significant distances from home, often requiring an 
overnight stay away from home. Because of economic pressures to arrive 
at a delivery site on schedule, drivers may often have difficulty 
maintaining a regular diet, exercise, and blood sugar monitoring 
patterns necessary to properly manage their diabetes. Failure to 
properly manage diabetes significantly increases the likelihood of an 
adverse event such as loss of consciousness while driving due to 
hypoglycemia (low levels of sugar in the blood).
Accident Investigation
    Question 15. Has FMCSA completed its investigation of the June 24, 
2002, motor coach accident in Garland, Texas, which killed four 
Louisiana children?
    Answer. The bus crash referred to involved Rockmore's Discovery 
Coaches and Tours Unlimited, Inc., which was domiciled in the Dallas, 
Texas area. The crash occurred on June 24, 2002, just west of Terrell, 
Texas. There were 5 fatalities, which included the driver and four 
passengers.
    FMCSA's investigation revealed that the driver had falsified his 
medical certificate. It also revealed that the owner of the company did 
not maintain driver qualification files and did not have drug or 
alcohol testing programs in place. Enforcement actions were taken on 
all three counts, and a fine of $1,990 was imposed. An additional fine 
of $2,000 was imposed on the company for lack of proper operating 
authority.
    FMCSA then issued Out-of-Service orders to the carrier for the 
Unsatisfactory safety rating it received, and later, Out-of-Service 
orders were served to the carrier's attorney for failure to pay the 
required fines.
    The actual cause of the crash was not made clear, but police 
records indicate that the driver may have been standing up to adjust 
his sun visor. The investigation also indicated that the driver did not 
obtain a full night's rest prior to the trip, and that he may have had 
some type of narcotic in his system, although FMCSA was never able to 
obtain the official toxicology reports.
Additional Questions on Reauthorization
    Question 16. Louisiana is a donor state. I support increased 
federal-aid funding to donor states and am a cosponsor of S. 1090, 
legislation to guarantee equity funding for donor states. This 
legislation proposes a 95 percent minimum guaranteed rate of return to 
a state of its share of the total that it contributes to the Federal 
Highway Trust Fund. How does the Administration's proposed SAFETEA 
address this issue of equity funding for donor states and a 95 percent 
guaranteed rate of return to achieve that goal?
    Answer. SAFETEA continues TEA-21's guarantee of a minimum return of 
90.5 percent on each State's share of contributions to the Highway 
Account of the Highway Trust Fund. TEA-21 greatly improved the equity 
of the overall distribution of highway formula funds and did so in a 
balanced way. The issue of return on contributions to the Highway 
Account of the Highway Trust Fund is the most difficult of all formula 
issues because it pits the national economy's need for a strong, 
connected highway system in every State against the desire for an 
equitable return on State contributions. Meeting both of these 
competing goals is costly and a balance must be struck.

    Question 17. The Louisiana Department of Transportation and 
Development says the state has High Priority corridors Interstate 49 
North and Interstate 49 South, Interstate 69, and Louisiana Highway 1 
named in previous Federal legislation. How would the Administration's 
proposed SAFETEA legislation fund these and other listed high priority 
corridors as well as the Strategic Highway Network systems in the 
states?
    Answer. SAFETEA does not propose changes to the already-designated 
high priority corridors or to the process for designation of additional 
corridors. SAFETEA's Multi state Corridor Planning Program provides 
funds for the multi-jurisdictional and multi-modal planning and the 
planning for operation alternatives that improve mobility, freight 
productivity, access to major marine ports, safety and security, all of 
which are important to successful corridor planning. Construction 
activities and operational improvements in the corridors would continue 
to be an eligible activity under the core highway formula programs, 
especially the National Highway System (NHS) Program and the Surface 
Transportation Program (STP).
    SAFETEA also provides specific support for the improvement of 
freight movement with its freight gateways program and dedicated 
funding for NHS freight connectors.

    Question 18. The Louisiana Department of Transportation and 
Development says that I-10 is a major trade corridor as a result of 
NAFTA and related trade. How does the proposed SAFETEA legislation 
address the needs of trade corridors that have emerged due to the NAFTA 
and related trade as has occurred in the case of Interstate 10?
    Answer. The proposed SAFETEA legislation would result in almost 93 
percent of Federal highway funds being delivered to the States through 
the core formula programs. This would increase the flexibility 
available to the Louisiana Department of Transportation to direct funds 
to projects of importance to the State, including those on trade 
corridors. The SAFETEA legislation would also result in streamlining of 
project approval and implementation. This would increase the ability of 
the Louisiana Department of Transportation to implement the projects 
the State chooses to fund.

    Question 19. How does the Administration's proposed SAFETEA 
legislation address funding access for intermodal access routes to 
ports, airports, and other similar facilities?
    Answer. Intermodal access routes or connectors are short, but 
important, highways that connect America's most important seaports, 
airports, rail yards, and pipeline facilities to the National Highway 
System (NHS). SAFETEA specifically addresses intermodal access to 
ports, airports, and other similar facilities by:

  <bullet> Establishing a National Highway System (NHS) set-aside to 
        fund highway connections between the NHS and intermodal freight 
        facilities, such as ports and freight terminals;

  <bullet> Creating a Freight Gateways Program by establishing Surface 
        Transportation Program eligibility for privately owned 
        intermodal freight transportation projects.

  <bullet> Requiring each State to establish a freight transportation 
        coordinator position.

  <bullet> Expanding TIFIA eligibility to include privately owned 
        intermodal freight projects, reducing the minimum project size 
        from $100 million to $50 million and allowing groups of related 
        freight projects (each of which separately might not meet the 
        threshold requirements) to be considered for assistance.

  <bullet> Expanding the use of private activity bonds for highway and 
        surface freight transfer facilities.

    <ctr-circle> Freight is particularly conducive to innovative 
            financing solutions because the revenue streams to finance 
            debt exist.

    <ctr-circle> Freight and goods are moved largely by private 
            entities often operating on publicly owned infrastructure. 
            This creates tremendous opportunity to utilize public-
            private partnerships.

    Question 20. In terms of innovative financing and alternative 
financing programs for highways, bridges, and related infrastructure, 
does the Administration's proposed SAFETEA legislation expand the 
existing authorized programs, and if it does, how does it expand them; 
or, does it add new programs, and if it does, how would these operate?
    Answer. A State Infrastructure Bank (SIB) pilot program will be 
authorized with participation limited to no more than five States. The 
program will complement the traditional Federal-aid highway and transit 
programs by supporting projects that can be financed with loans or will 
benefit from credit enhancements. A State may contribute up to 10 
percent of the funds it is provided in Fiscal Years 2004 through 2009 
for NHS, STP, Interstate Maintenance, the Bridge Program, and Minimum 
Guarantee into the highway account of the SIB established by the State.
    SAFETEA would reauthorize the Transportation Infrastructure Finance 
and Innovation Act (TIFIA) credit program by providing up to $2.6 
billion annually for credit assistance. A total of $780 million of 
contract authority would be provided to pay the estimated cost of the 
credit assistance. Access to TIFIA would be increased by lowering the 
project cost threshold from $100 million to $50 million and extending 
eligibility to private rail freight projects. SAFETEA would also extend 
eligibility to a group of functionally related freight projects, each 
of which separately might not meet the project cost threshold. SAFETEA 
improves the usefulness of the TIFIA line of credit, making it 
available to a borrower in order to avoid (instead of simply respond 
to) an event of default. Also, SAFETEA adds a requirement that the 
total amount of senior project obligations must equal or exceed the 
total amount of the TIFIA instrument. Other changes are primarily 
intended to clarify or simplify the requirements in TEA-21.
    The SAFETEA Private Activity Bonds provision is intended to 
encourage additional private participation in surface transportation 
infrastructure projects. The Internal Revenue Code would be amended to 
include highway facilities and surface freight transfer facilities 
among the types of privately developed and operated projects that can 
utilize tax-exempt private activity bond financing. The new bonds would 
be subject to the Internal Revenue Code rules that govern exempt 
facility bonds, except that they would not count against a State's 
private activity bond volume cap. Exclusion from the volume cap is 
necessary to allow surface transportation infrastructure projects to be 
advanced without displacing other types of projects eligible for exempt 
facility bonds. The maximum aggregate amount of bonds that could be 
issued under the provision would be $15 billion. The Secretary of 
Transportation would allocate the $15 billion of authority among 
eligible projects.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Ron Wyden to 
                         Hon. Norman Y. Mineta
Diabetic Drivers
    Question. The Federal Motor Carrier Safety Administration has 
issued a proposed rule on the diabetes-Commercial Driver License (CDL) 
exemption program which includes a requirement that in order to even 
apply for the program, all candidates must have three years of 
commercial driving experience while using insulin. In effect, the 
three-year rule makes it impossible for almost anyone to qualify for 
the program. Can you explain why the DOT supports the three-year rule 
when FMCSA's own Expert Medical Panel opposes it, and its inclusion 
means that very few, if any, of my constituents will be able to 
participate in the diabetes-CDL exemption program?
    Answer. This is a complex matter. It is incumbent on the agency to 
carefully weigh the potential safety consequences against the desire of 
individuals to operate CMVs. A careful and conservative approach is 
essential. We intend to issue a final decision on our diabetes program 
this summer.
    The 3-year requirement would be the first step in moving from an 
absolute prohibition toward a more flexible standard. The 3-year 
requirement is needed to ensure effective safety program oversight; 
thorough screening of exemptions applicants and periodic monitoring of 
their performance is the best way to ensure that allowing exemptions 
from the diabetes standard is consistent with a high level of safety. 
Any exemption program requires that we determine beforehand, that the 
level of safety will be equivalent to, or greater than, the level 
absent the exemption. As such:

  <bullet> The 3-year requirement is supported by the previous work the 
        agency performed under its diabetes waiver program in the mid-
        1990s. Drivers in that program, who had 3 years of experience 
        driving while using insulin, had accident rates lower than the 
        National rate.

  <bullet> The 3-year requirement provides sufficient time to expose 
        anomalies in the driving record and enhance safety 
        predictability, while allowing the driver to develop a routine 
        for managing his or her condition and to demonstrate these 
        adaptive skills.

  <bullet> The agency will use the 3-year time frame to determine past 
        safety performance as a predictor of future safety performance.

    FMCSA believes that its medical advisory panel's recommendation 
that persons could be qualified to drive a CMV after a 1- or 2-month 
period of adjustment to insulin use is inappropriate for CMV drivers, 
given the complex demands of operating a large vehicle.
    Diabetes is a chronic disease requiring constant control and 
monitoring. CMV drivers, however, are frequently required to work long 
hours and travel significant distances from home, often requiring an 
overnight stay away from home. Because of economic pressures to arrive 
at a delivery site on schedule, drivers may often have difficulty 
maintaining a regular diet, exercise, and blood sugar monitoring 
patterns necessary to properly manage their diabetes. Failure to 
properly manage diabetes significantly increases the likelihood of an 
adverse event such as loss of consciousness while driving due to 
hypoglycemia (low levels of sugar in the blood).

                                  <all>

</pre></body></html>
